<html>
<title> - SYRIA: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          SYRIA: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 4, 2013

                               __________

                           Serial No. 113-113

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
82-640                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     4
The Honorable Chuck Hagel, Secretary of Defense, U.S. Department 
  of Defense.....................................................    16
General Martin E. Dempsey, Chairman, Joint Chiefs of Staff, U.S. 
  Department of Defense..........................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................    10
The Honorable Chuck Hagel: Prepared statement....................    19

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Prepared statement and questions........    87
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    89
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............    91
Questions submitted for the record by the Honorable Edward R. 
  Royce, a Representative in Congress from the State of 
  California, and chairman, Committee on Foreign Affairs, to the 
  Honorable John F. Kerry........................................    92
Questions submitted for the record by the Honorable Brad Sherman, 
  a Representative in Congress from the State of California, to 
  the Honorable John F. Kerry....................................    93
Questions submitted for the record by the Honorable Jeff Duncan, 
  a Representative in Congress from the State of South Carolina, 
  to:
  The Honorable John F. Kerry....................................    94
  The Honorable Chuck Hagel......................................    95
Questions submitted for the record by the Honorable Alan Grayson, 
  a Representative in Congress from the State of Florida, to the 
  Honorable John F. Kerry........................................    96
Questions submitted for the record by the Honorable Alan Grayson 
  and responses from:
  The Honorable Chuck Hagel......................................   102
  General Martin E. Dempsey......................................   112
Questions submitted for the record by the Honorable Mo Brooks, a 
  Representative in Congress from the State of Alabama, to the 
  Honorable John F. Kerry........................................   119
Questions submitted for the record by the Honorable George 
  Holding, a Representative in Congress from the State of North 
  Carolina, to:
  The Honorable John F. Kerry....................................   121
  General Martin E. Dempsey......................................   122


          SYRIA: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE

                              ----------                              


                      WEDNESDAY, SEPTEMBER 4, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 12:15 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. I am going 
to ask all of the members if you could take your seats at this 
time.
    Welcome, Secretary Kerry.
    Today we meet to weigh the Obama administration's proposed 
military response to the Syrian regime's odious use of chemical 
weapons. I want to thank Secretary Kerry, Secretary Hagel, and 
Chairman of the Joint Chiefs of Staff General Dempsey for 
appearing before us today. And I want to express my 
appreciation to committee members, Democrats and Republicans, 
for attending this hearing on short notice.
    The President's decision this past weekend to seek an 
authorization of military force from Congress was not 
anticipated, but it was welcomed. This committee has no greater 
responsibility than overseeing the deployment and use of the 
United States Armed Forces. Since the administration of 
President John Adams, Congress has acted several times to 
authorize the use of military force by the President. One thing 
different here is that the administration's proposal supports a 
U.S. military response against a country in civil war. Needless 
to say, this complicates the consideration.
    I think we are all troubled by the unfortunate lack of 
international support. Although the proposed action aims to 
uphold an international norm, there is no United Nations 
resolution of support, nor NATO backing.
    As we will hear today, the President views striking the 
Syrian regime as a way to strengthen deterrence against the 
future use of chemical weapons by Assad and by others. That is 
an important consideration. There are too many bad actors out 
there. Countries like Iran are watching. And, yes, a credible 
threat is key to putting the brakes on Iran's nuclear program.
    There are concerns. The President promises a military 
operation in Syria of limited scope and duration. But the Assad 
regime would have a say in what happens next. That would be 
particularly true as President Obama isn't aiming to change the 
situation on the ground. What are the chances of escalation? 
Are different scenarios accounted for? If our credibility is on 
the line now, as is argued, what about if Assad retaliates? 
Americans are skeptical of getting near a conflict that, as one 
witness has noted, is fueled by historic, ethnic, religious, 
and tribal issues.
    The administration's Syria policy doesn't build confidence. 
For over 2 years U.S. policy has been adrift. Initially, the 
Obama administration saw Assad as a reformer. Once the revolt 
started, it backed U.N. diplomacy. And then it bet on a Moscow 
policy and the thought that Russia would play a constructive 
role. Predictably, that has not worked.
    Over a year ago, President Obama drew, in his words, a red 
line. Yet only last week did the administration begin to 
consult with Congress on what that means. Today, the House 
begins formal consideration of the President's request to use 
military force in Syria. It is a cliche but true: There are no 
easy answers. Syria and much of the Middle East are a mess. So 
we look forward to a thorough and deliberate discussion today, 
one reflecting the gravity of the issue.
    And I will now turn to Ranking Member Engel, who has been 
ringing the alarm bell on Syria for a long, long time. Ranking 
Member Engel from New York.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
holding this hearing today.
    Secretary Kerry, welcome.
    I look forward to this hearing, which addresses the Syrian 
regime's use of chemical weapons, the serious threat to the 
national security interests of the United States and our 
allies.
    Many of you know that I have been following the Middle East 
for many years, but in particular I have spent an enormous 
amount of time on Syria. The Syria Accountability Act of 2003, 
which I authored, is the landmark statement of American policy 
toward Syria, and imposed sanctions on Damascus in large part 
due to its chemical weapons and other weapons of mass 
destruction. In March of this year, I introduced a bipartisan 
bill that would authorize the President to arm fully vetted 
members of the moderate Syrian opposition. So when I talk about 
Syria, I am speaking from years of experience, hours of 
hearings, and scores of meetings with U.S. and foreign 
officials.
    Mr. Chairman, we have all seen the images of the lifeless 
bodies of Syrian men, women, and children, at least 400 
children, neatly lined up in rows, wrapped in white sheets. 
Their bodies appeared to have no outward physical injuries. 
Entire families killed in their homes in the blink of an eye. 
Our intelligence agencies have assessed with high confidence 
that these innocent civilians were killed by sarin gas, a 
deadly nerve agent classified as a weapon of mass destruction 
by the U.N. Security Council and outlawed by the Chemical 
Weapons Convention of 1993. They have also concluded beyond a 
reasonable doubt that the Assad regime is responsible for the 
use of these horrific weapons.
    I strongly agree with President Obama that the United 
States must respond to this flagrant violation of international 
law with a limited military strike to deter the further use of 
chemical weapons and degrade the Assad regime's ability to use 
them again.
    But the issue we confront today is much bigger than the use 
of chemical weapons in Syria. We are talking about the 
credibility of America as a global power. We are talking about 
sending a clear message to the dictators in Tehran and 
Pyongyang that there will be serious consequences for flouting 
the will of the international community and that the U.S. backs 
its words with action.
    Iran in particular is watching very carefully to see if the 
United States is willing to stand up for its vital interests in 
the region and the interests of our allies. They are a central 
player in the Syrian civil war, providing weapons, money, 
advice, and manpower to the Assad regime, and supporting the 
intervention of their terrorist proxy Hezbollah. And according 
to the IAEA, they are moving full speed ahead with efforts to 
develop a nuclear weapons capability.
    I believe that Congress must authorize the Commander in 
Chief to use limited military force against the Assad regime, 
and I hope my colleagues will join me in supporting such an 
authorization. But we should not give the President a blank 
check. The authorization measure we take up must clarify that 
any strike should be of a limited nature and that there should 
absolutely be no American boots on the ground in Syria.
    While it is critically important for the U.S. to hold the 
Assad regime accountable for the use of chemical weapons, we 
must also focus on developing a larger strategy to address the 
ongoing humanitarian crisis, support our regional partners, and 
ultimately find a path forward that brings a lasting peace for 
the Syrian people.
    As I mentioned earlier, in March I introduced the 
bipartisan Free Syria Act, legislation that would increase 
humanitarian aid and authorize the President to provide lethal 
and nonlethal assistance to Syria's moderate opposition. I 
continue to believe that the moderate opposition is key to 
Syria's future and that we must redouble our efforts to support 
them as soon as possible.
    I know many Members on both sides of the aisle are 
struggling with this issue of using force in Syria. We are all 
trying to do the right thing for our constituents, for our 
country, and for our national security. Questions of war and 
peace are always difficult, and I am proud that we are treating 
them with the utmost seriousness in this committee. But in the 
days before we take any vote, I encourage my colleagues to ask 
themselves these questions: If we do not pass the authorization 
measure, what message will Assad get? What message will Iran 
receive? Hezbollah? Our allies? We have to live up to our 
commitments.
    So Mr. Chairman, I would like to thank you for calling this 
important hearing, and I look forward to Secretary Kerry and to 
the testimony of our other distinguished witnesses.
    Chairman Royce. Thank you, Mr. Engel.
    This afternoon we are pleased to be joined by our Secretary 
of State, John Kerry. And shortly we will be joined by the 
Secretary of Defense and the chairman of the Joint Chiefs of 
Staff.
    Prior to his appointment, John Kerry served as United 
States Senator from Massachusetts for 28 years and chaired the 
Senate Foreign Relations Committee for the last 4 years. And 
without objection, the witnesses' statements, Senator Kerry and 
those of Secretary Hagel and General Dempsey, will be made part 
of the record. Members here will have 5 days to submit 
statements and questions and extraneous material for the 
record.
    And I would like to note, members, that we have a nearly 
full committee here with us today. And therefore, we need to 
work within the time constraints that we have. We are going to 
ask all members to be mindful of that timer as you ask 
questions. So we will begin now with Secretary Kerry's 
testimony.
    Mr. Secretary.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Mr. Chairman, thank you very much, Ranking 
Member Engel, as the chairman said, an early congressional 
leader on Syria. And to all the members of the committee let me 
just say first of all that I have enormous respect for the fact 
that everybody has returned unexpectedly and hurriedly to come 
back here to be part of this debate. And on behalf of the 
administration and the American people, I thank you for doing 
so.
    I think it is--I don't think, I know it is no exaggeration 
to say that the world is not just watching to see what we 
decide here, but the world is really watching to see how we 
decide it, frankly, whether or not we can still make or achieve 
a single voice speaking for the United States of America, the 
Congress, and the President of the United States. And they want 
to know whether or not America is going to rise to this moment, 
whether or not we will express our position with the unity that 
this moment demands.
    The question of whether or not to authorize force, the 
chairman referenced my 28 years here, I had a number of 
occasions to make those votes and a number of occasions to make 
judgments about Presidents who acted without coming to 
Congress. And I found that we were and are always stronger when 
we can act together.
    First and foremost, I think it is important to explain to 
the American people why we are here. And I don't think it can 
bear enough recognition, as people grapple with this at the end 
of summer, post-Labor Day, kids going back to school, and a lot 
of other concerns on their mind. We are here because against 
the multiple warnings from the President of the United States, 
warnings from Congress, from many of you, warnings from friends 
and allies, and even warnings from Russia and Iran that 
chemical weapons are out of bounds, against all of that the 
Assad regime, and only, undeniably, the Assad regime, unleashed 
an outrageous chemical attack against its own citizens. So we 
are here because a dictator and his family's enterprise, which 
is what it is, were willing to infect the air of Damascus with 
a poison that killed innocent mothers and fathers and children, 
their lives all snuffed out by gas during the early morning 
hours of August 21st.
    Now, some people in a few places, amazingly, against all 
the evidence, have questioned whether or not this assault on 
conscience actually took place. And I repeat again here today, 
unequivocally, only the most willful desire to avoid reality, 
only the most devious political purpose could assert that this 
did not occur as described or that the regime did not do it. It 
did happen, and the Bashar al-Assad regime did it.
    Now, I remember Iraq. And Secretary Hagel, who will soon be 
here, and General Dempsey, obviously, also remember it very 
well. Secretary Hagel and I both voted in the United States 
Senate. And so both of us are especially sensitive to never 
again asking any Member of Congress to vote on faulty 
intelligence. And that is why our Intelligence Community took 
time, that is why the President took time to make certain of 
the facts, and make certain of this case, and to declassify 
unprecedented amounts of information in order to scrub and 
rescrub the evidence and present the facts to the American 
people, and especially to the Congress, and through you, to the 
American people. We have declassified unprecedented amounts of 
information, some of it, I might add, not because initially 
that might have been the instinct in the sense of protecting 
sources and methods, but some leaked. And after its leaking, we 
thought it was important to verify whether it was true or not.
    So by now you have heard a great deal from me and others in 
the administration about the comprehensive evidence that we 
have collected in the days following the attack on August 21st. 
So I am not going to go through all of it again right now. I am 
happy to discuss it further if any of you have any questions. 
But I can tell you beyond a reasonable doubt--and I used to 
prosecute cases; I ran one of the largest district attorney's 
offices in America--and I can tell you beyond a reasonable 
doubt the evidence proves that the Assad regime prepared this 
attack and that they attacked exclusively opposition-controlled 
or contested territory.
    Now, at some point in the appropriate setting you will 
learn additional evidence, which came to us even today, which 
further documents the acknowledgment of various friends of the 
Assad regime that they know that this happened. Our evidence 
proves that they used sarin gas that morning, and it proves 
that they used some of the world's most heinous weapons to kill 
more than 1,400 innocent people, including at least 426 
children.
    Now, I am sure that many of you have seen the images 
yourselves of men and women, the elderly, and children sprawled 
on a hospital floor, no wounds, no blood, and chaos and 
desperation around them, none of which could possibly have been 
contrived. All of that was real. We have the evidence. We know 
what happened. And there is no question that this would meet 
the standard by which we send people to jail for the rest of 
their lives.
    So we are here because of what happened. But we are also 
here not just because of what happened 2 weeks ago, we are here 
because of what happened nearly a century ago, when in the 
darkest moments of World War I, when they were over, after the 
horror of gas warfare, when the majority of the world came 
together to declare in no uncertain terms that chemical weapons 
crossed the line of conscience and that they must be banned. 
And over the years that followed, more than 180 countries, I 
think it is 184 to be precise, including Iran, Iraq, and 
Russia, all agreed and joined the Chemical Weapons Convention. 
Even countries with whom we agree on very little else agreed on 
this.
    Now, some have tried to suggest that the debate that we are 
having today is about this President's red line, that this is 
about President Obama's red line. Let me make it as clear as I 
can to all of you: That is just not true. This is about the 
world's red line, it is about humanity's red line, a line that 
anyone with a conscience should draw, and a line that was drawn 
nearly 100 years ago, in 1925, when the Chemical Weapons 
Convention was agreed on.
    This debate, I might add to you, is also about Congress' 
red line. You agreed to the Chemical Weapons Convention. Not 
all of you were here to vote for it, but the Congress agreed to 
that. The Congress passed the Syria Accountability Act, which 
Congressman Engel has referred to and authored. And that act 
says clearly, and I quote, ``Syria's chemical weapons threaten 
the security of the Middle East and the national security 
interests of the United States.'' I think repeatedly Members of 
Congress have spoken out about the grave consequences if Assad 
in particular were to use chemical weapons. And both Speaker 
Boehner and Leader Pelosi have stated in recent days that the 
actions of the Assad regime are unacceptable and that the 
United States has a responsibility to respond.
    So as we debate, the world is watching and the world is 
wondering not whether Assad's regime actually did this--I think 
that fact is now beyond question--the world is wondering 
whether the United States of America is going to consent 
through silence to stand aside while this kind of brutality is 
allowed to happen without consequence.
    In the nearly 100 years since this global commitment 
against chemical weapons was made, only two tyrants have dared 
to cross the world's brightest line. Bashar al-Assad has now 
become the third. And history, I think everyone here knows, 
holds nothing but infamy for those criminals. And history also 
reserves very little sympathy for their enablers. And that is 
the gravity of this moment. That is really what is at stake in 
the decision that the Congress faces.
    Syria, bottom line, is important to America and our 
security for many reasons. First, you can't overlook the danger 
that these weapons, as you said in the Syria Accountability 
Act, pose to the Middle East, to our allies, to our friends. 
You can't overlook the threat that they face even to the United 
States ultimately if they fall into the wrong hands or if they 
are used with impunity. Since President Obama's policy is that 
Assad must go, it is not insignificant that to deprive or 
degrade Assad's chemical weapons deprives him of a lethal 
weapon in this ongoing civil war. In addition, we have 
important strategic national security interests, not just in 
preventing the proliferation of chemical weapons, but to avoid 
the creation of a safe haven or a base of operations for 
extremists, al-Nusra, others, to use these chemical weapons 
either against us or against our friends. Forcing Assad to 
change his calculation about his ability to act with impunity 
can contribute to his realization that he cannot gas or shoot 
his way out of his predicament.
    Syria is also important because, quite simply, and I can't 
say this strongly enough to all of you, many of you are 
parents, you know how lessons are learned by children. Many of 
you at school may have confronted at one point or a time a 
bully on the block or in the building. I think, quite simply, 
common sense and human experience and reality tell us that the 
risk of not acting is greater than the risk of acting. If we 
don't take a stand here today, I guarantee you we are more 
likely to face far greater risks to our security and a far 
greater likelihood of conflict that demands our action in the 
future.
    Why? Because we, as confidently as we know what happened in 
Damascus on August 21, we know that Assad will read our 
silence, our unwillingness to act as a signal that he can use 
his weapons with impunity. After all has been said and done, if 
we don't now, knowing that he has already done this at least 11 
times that our Intelligence Community can prove, and here in 
this grotesque larger event, larger than anything that has 
happened before, if we back down, if the world backs down, we 
have sent an unmistakable message of permissiveness.
    Iran, I guarantee you, is hoping we look the other way. And 
surely they will interpret America's unwillingness to act 
against weapons of mass destruction as an unwillingness to act 
against weapons of mass destruction. And we will fight for the 
credibility to make a deterrent against a nuclear weapon as 
meaningful as it should be without that fight.
    North Korea is hoping for ambivalence from the Congress. 
They are all listening for our silence. So the authorization 
that President Obama seeks is distinctly and clearly in our 
national interest, in our national security interest. We need 
to send to Syria and to the world, to dictators and terrorists, 
to allies and civilians alike, the unmistakable message that 
when we say never again we actually don't mean sometimes, we 
don't mean somewhere, we mean never again.
    So this is a vote for accountability, the norms and the 
laws of the civilized world. That is what this vote is for. And 
if we don't answer Assad today, we will erode the standard that 
has protected our troops for a century. Our troops. Our troops 
in war have been protected by the existence of this 
prohibition, through World War II, through Korea, through 
Vietnam, through both Iraq wars. The fact is we have not seen 
chemical weapons in the battlefield but for the two occasions I 
mentioned previously. Our troops are protected. This is a 
standard that we need to enforce to stand up for America's 
interests.
    And I will say to you unequivocally that our allies and our 
partners are counting on us. The people of Israel, Jordan, and 
Turkey, each look next door and they see chemical weapons being 
used. They are one stiff breeze away from the potential of 
those weapons harming them. They anxiously await our assurance 
that our word is true. And they await the assurance that if the 
children lined up in those unbloodied burial shrouds in 
Damascus were their own children, as they might be if this got 
out of hand, they want to know that we would keep the world's 
promise.
    As Justice Jackson said in the opening argument at 
Nuremberg, ``The ultimate step in avoiding periodic wars, which 
are inevitable in a system of international lawlessness, is to 
make statesmen responsible to the law.'' If the world's worst 
despots see that they can flout with impunity prohibitions 
against the world's worst weapons, then those prohibitions are 
rendered just pieces of paper. That is what we mean by 
accountability. And that is, I say to all of you respectfully, 
that is why we cannot be silent.
    Let me be very, very clear. When I walked into this room a 
person of conscience stood up behind me, as is the ability of 
people in our country, and that person said, please don't take 
us to war, don't take us to another war. I think the three of 
us sitting here understand that plea as well as any people in 
this country. Let me be clear, we are not asking America to go 
to war. And I say that sitting next to two individuals who well 
know what war is, and there are others here today who know what 
war is. They know the difference between going to war and what 
the President is requesting now. We all agree there will be no 
American boots on the ground. The President has made crystal 
clear we have no intention of assuming responsibility for 
Assad's civil war. That is not in the cards. That is not what 
is here.
    The President is asking only for the power to make certain 
that the United States of America means what we say. He is 
asking for authorization, targeted and limited, to deter and 
degrade Bashar al-Assad's capacity to use chemical weapons.
    Now, I will make it clear, for those who feel that more 
ought to be done or that, you know, in keeping with the policy 
that Assad must go, clearly the degradation of his capacity to 
use those weapons has an impact on the lethality of the weapons 
available to him. And it will have an impact on the 
battlefield. Just today, before coming in here, I read an email 
to me about a general, the Minister of Defense, former Minister 
or Assistant Minister, I forget which, who has just defected 
and is now in Turkey. And there are other defections that we 
are hearing about the potential of because of the potential 
that we might take action. So there will be downstream impacts, 
though that is not the principal purpose of what the President 
is asking you for.
    Now, some will undoubtedly and understandably ask about the 
unintended consequences of action. Will this drag you in 
inadvertently? And they fear that a retaliation could lead to a 
larger conflict. Let me say again, unequivocally, bluntly, if 
Assad is arrogant enough and foolish enough to retaliate to the 
consequences of his own criminal activity, the United States 
and our allies have ample ways to make him regret that decision 
without going to war. Even Assad's supporters, Russia and Iran, 
say publicly that the use of chemical weapons is unacceptable. 
And guess what? Even Iran and Syria itself acknowledge that 
these weapons were used. They just pretend that the other guys, 
who don't even have the capacity to do it, somehow did it.
    So some will question the extent of our responsibility to 
act here. To them I say, when someone kills hundreds of 
children with a weapon the world has banned, we all are 
responsible. That is true because of treaties like the Geneva 
Convention and the Chemical Weapons Convention. But it is also 
true because we share a common humanity and a common sense of 
decency.
    This is not the time for armchair isolationism. This is not 
the time to be spectators to slaughter. This is not the time to 
give permission to a dictator, who has already used these 
weapons, the unfettered ability to continue to use them because 
we stepped back. Neither our country nor our conscience can 
afford the cost of silence or inaction.
    So we have spoken up, the President of the United States 
has made his decision. The President has decided we need to do 
this. But in keeping with our Constitution, and the full 
measure of the hopes and articulated aspirations of our 
Founding Fathers, the President is coming to the Congress of 
the United States, a decision that the American people agree 
with, and asking the Congress to stand with him and with this 
administration to stand up for our security, to protect our 
values, to lead the world with conviction that is clear. That 
is why we are here. And we look forward to having a rigorous 
discussion with you in furtherance of that mission.
    Chairman Royce. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Kerry follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. We have been joined by Secretary Hagel, who 
before being appointed Secretary of Defense served in the 
United States Senate from 1996 until 2009. He is the recipient 
of two Purple Hearts for his service in Vietnam. And we have 
been joined by General Dempsey. From platoon leader to 
Commandant Commander, he has served in the United States Army 
for over 40 years, and now serves as the chairman of the Joint 
Chiefs. We will go to our Secretary of Defense, Mr. Hagel, 
first.

 STATEMENT OF THE HONORABLE CHUCK HAGEL, SECRETARY OF DEFENSE, 
                   U.S. DEPARTMENT OF DEFENSE

    Secretary Hagel. Mr. Chairman, Ranking Member Engel, 
members of the committee, thank you. And General Dempsey and I 
also apologize for being late. The other side of the Capitol 
held us up, but we are much better for it. So thank you for 
your understanding.
    In the coming days, as we all know, Congress will debate 
how to respond to the most recent chemical weapons attack in 
Syria, a large-scale sarin gas assault perpetrated by the 
Syrian Government against its own people. I welcome this 
debate, and I strongly support President Obama's decision to 
seek congressional authorization for the use of force in Syria.
    As each of us knows, committing the country to using 
military force is the most difficult and important decision 
America's leaders can make. All of those who are privileged to 
serve our Nation and have the responsibility in many ways to 
serve our country, but the primary responsibility is to ask the 
tough questions before any military commitment is made. The 
American people must be assured that their leaders are acting 
according to U.S. national interests, with well-defined 
military objectives, and with an understanding of the risks and 
consequences involved. The President, along with his entire 
national security team, asked those tough questions before we 
concluded that the United States should take military action 
against Syrian regime targets.
    I want to address very briefly, Mr. Chairman, before we get 
to your questions, how we reached this decision by clarifying 
the U.S. interests at stake, our military objectives, and the 
risks of not acting at this critical juncture. As President 
Obama said, the use of chemical weapons in Syria is not only an 
assault on humanity, it is a serious threat to America's 
national security interests and those of our closest allies. 
The Syrian regime's use of chemical weapons poses grave risks 
to our friends and partners along Syria's borders, including 
Israel, Jordan, Turkey, Lebanon, and Iraq. If Assad is prepared 
to use chemical weapons against his own people, we have to be 
concerned that terrorist groups like Hezbollah, which has 
forces fighting in Syria supporting the Assad regime, could 
acquire them and use them.
    This risk of chemical weapons proliferation poses a direct 
threat to our friends and partners, and to U.S. personnel in 
the region. We cannot afford for Hezbollah or any terrorist 
group determined to strike the United States to have incentives 
to acquire or use these chemical weapons. The Syrian regime's 
actions risk eroding the nearly century-old international norm 
against the use of chemical weapons, a norm that has helped 
protect United States forces and our homeland.
    Weakening this norm could embolden other regimes to acquire 
or use chemical weapons. For example, North Korea maintains a 
massive stockpile of chemical weapons that threaten our treaty 
ally, the Republic of South Korea, and the 28,000 U.S. troops 
stationed on the border. I have just returned from Asia, where 
I had a very serious and long conversation with South Korea's 
Defense Minister about the threat that North Korea's stockpile 
of chemical weapons presents to them. Our allies throughout the 
world must be assured that the United States will fulfill its 
security commitments. Given these threats to our national 
security, the United States must demonstrate through our 
actions that the use of chemical weapons is unacceptable.
    The President has made clear that our military objectives 
in Syria would be to hold the Assad regime accountable, degrade 
its ability to carry out these kinds of attacks, and deter the 
regime from further use of chemical weapons. The Department of 
Defense has developed military options to achieve these 
objectives, and we have positioned U.S. assets throughout the 
region to successfully execute the mission. We believe we can 
achieve them with a military action that would be limited in 
duration and scope. General Dempsey and I have assured the 
President that U.S. forces will be ready to act whenever the 
President gives the order.
    We are also working with our allies and our partners in 
this effort. Key partners, including France, Turkey, Saudi 
Arabia, the United Arab Emirates, and other friends in the 
region have assured us of their strong support for U.S. action.
    In defining our military objectives, we have made clear 
that we are not seeking to resolve the underlying conflict in 
Syria through direct military force. Instead, we are 
contemplating actions that are tailored to respond to the use 
of chemical weapons. A political solution created by the Syrian 
people is the only way to ultimately end the violence in Syria, 
and Secretary Kerry is leading international efforts to help 
the parties in Syria move toward a negotiated transition.
    We are also committed to doing more to assist the Syrian 
opposition. But Assad must be held accountable for using these 
weapons in defiance of the international community. Having 
defined America's interests and our military objectives, we 
also must examine the risks and the consequences.
    As we all know, there are always risks in taking action. 
But there are also risks with inaction. The Assad regime, under 
increasing pressure by the Syrian opposition, could feel 
empowered to carry out even more devastating chemical weapons 
attacks. Chemical weapons make no distinction between 
combatants and innocent civilians, and inflict the worst kind 
of indiscriminate suffering, as we have recently seen. A 
refusal to act would undermine the credibility of America's 
other security commitments, including the President's 
commitment to prevent Iran from acquiring a nuclear weapon.
    The word of the United States must mean something. It is 
vital currency in foreign relations and international and 
allied commitments. Every witness here today at this table, 
Secretary Kerry, General Dempsey, and myself, as Secretary 
Kerry has noted, have served in uniform, fought in war, and 
seen its ugly realities up close. We understand that a country 
faces few decisions as grave as using military force. We are 
not unaware of the costs and the ravages of war. But we also 
understand that America must protect its people and its 
national interests. That is our highest responsibility.
    All of us who have the privilege and responsibility of 
serving this great Nation owe the American people, and 
especially those wearing the uniform of our country, a vigorous 
debate on how America should respond to the horrific chemical 
weapons attack in Syria. I know everyone on this committee 
agrees and takes their responsibility of office just as 
seriously as the President and everyone at this table.
    Mr. Chairman, thank you.
    Chairman Royce. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Hagel follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. And we also appreciate General Dempsey 
being with us today to answer any members' questions.
    And if I could go, Secretary Kerry, to you for a question. 
Something I referenced in my opening statement, other countries 
are watching. And as I understand it, the administration and 
you, as a matter of fact, have been in contact with the 
governments, in discussions with South Korea, with Turkey, with 
Saudi Arabia, with Israel, and I have read several others in 
the press. I was going to ask you the communications that you 
are having. What are they communicating to you about this 
incident when you talk to these governments?
    Secretary Kerry. Mr. Chairman, I am very happy to share 
that with you. Let me just say at the outset, I mentioned an 
email I got coming in. The same news outlet, Reuters, has now 
said that the Syrian Government is saying that the defection 
hasn't taken place. So who knows whether it has or it hasn't.
    What I do know is this: The intelligence is very clear, and 
in other settings I urge you to go and look at it, that there 
are currently defections taking place. I think there are 
something like 60 to 100 in the last day or so, officers and 
enlisted personnel. And there are serious questions taking 
place among the so-called elite of Syria about whether or not 
Bashar al-Assad has kind of run the table here too far, and 
that there are serious questions about the future. I just put 
that on the table for you to think about.
    Chairman Royce. We understand. But the views of South 
Korea, the views of the Governments of Turkey----
    Secretary Kerry. We have reached out to over 100 countries. 
We continue to reach out to these countries. Fifty-three 
countries or organizations have acknowledged that chemical 
weapons were used, and 37 of them have said so publicly. That 
will grow as the evidence that we released yesterday becomes 
more prevalent. I will be meeting with the foreign ministers of 
Europe, the 28 foreign ministers in Vilnius on Saturday. This 
will clearly be a topic of discussion. And many of them have 
had reservations, waiting for the evidence. So I see many more 
countries joining.
    Thirty-one countries or organizations have stated publicly 
or privately that the Assad regime is responsible for this 
attack and that was before our evidence package was put 
together. And 34 countries or organizations have indicated that 
if the allegations prove to be true they would support some 
form of action against Syria.
    Now, to be more specific and bear down on the President's 
proposal and this particular action, currently in the region 
there are a number of countries, friends of ours, that have 
offered to be part of this operation, and those countries can 
speak for themselves. But there are more countries who have 
offered to be part of this operation than our military 
currently believes we need to have part of it in order to 
effect the operation. Obviously, there is an interest in having 
an international, multinational effort, and I think the 
President is committed to doing so. But there are friends of 
ours, including France, as you know, which is sticking with its 
position, and others in the region who are prepared to be part 
of this operation with us.
    Chairman Royce. Let me ask a question of our Chairman of 
the Joint Chiefs, General Dempsey. One of the first reactions 
that I have gotten from members here was on the open-ended 
nature of that authorization. And as you know, on the Senate 
side there is now discussion. We all know there is no support 
for boots on the ground on the House side. But it doesn't 
reference it in the authorization. Now they are. They are 
taking that off the table. They are looking at a short 
timeframe. They are talking about a comprehensive Syrian 
strategy. And resolutions here on the House side likewise are 
coming at this from a different direction than the original 
authorization. I would like your views. Can you express your 
perception or your response to the initiatives that you now see 
or the resolutions that you now see on the Senate side and here 
on the House side on rewriting the original authorization?
    General Dempsey. Yeah. Thanks, Chairman. I have made it a 
point of importance not to discuss my personal views about the 
resolution. That is for you to determine. I will tell you that 
militarily, the broader the resolution the more options I can 
provide. But that said, I will also assure you that the 
President has given me quite clear guidance that this will be a 
limited and focused operation, not an open-ended operation.
    Chairman Royce. Well, I think that--and I will maybe go to 
Secretary Hagel there for a few comments on this, if you could 
sum up--but again, it is very clear on the House side there is 
no support for boots on the ground and the desire to rewrite 
the authorization. Your response?
    Secretary Hagel. I saw one draft this morning, Mr. 
Chairman, from the Senate side. I have not seen anything since, 
over the last few hours. I know all of our agencies represented 
at this table, as well as the National Security Council, are 
working with the appropriate committee people. And I have 
confidence that we will be able to come up with a mutually 
agreed upon resolution to be able to accomplish the objective.
    Chairman Royce. We will go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Secretary Kerry and Secretary Hagel, perhaps you could 
answer this. I know Secretary Kerry referred to it in his 
opening remarks. I believe, like you, Mr. Secretary, that 
American credibility on the international stage hangs in the 
balance. And while it is crucial to make sure that Assad never 
uses chemical weapons again, I believe there is something even 
greater at stake, and that is the message we send to Iran as 
they continue to pursue a dangerous nuclear weapons capability. 
Iran is watching how we respond to the Syrian regime's crossing 
of the President's red line and of the world's red line, and 
the Supreme Leader is also aware that President Obama is 
keeping all options on the table, including utilizing military 
force to prevent Iran from possessing nuclear weapons. So I 
would like to ask you, what will Iran's reaction be if we don't 
act now? Will they see our threat to stop their nuclear weapons 
program as hollow and will our effort to stop the Iranian bomb 
be put in jeopardy? And do you think their calculus on their 
nuclear program will change based on what we do now?
    Secretary Kerry. Congressman, there is an enormous amount 
of question in the region, not just by Iranians, but by 
Emiratis, Saudis, Kuwaitis, Qataris and others as to whether or 
not the United States of America means what it says. And they 
ask me all the time, are you guys serious about Iran? I am sure 
when they come and visit with you, they look to you for 
reassurances with respect to America's position on Iran.
    There is no question in my mind that the President of the 
United States does not bluff, and he is committed that Iran 
will not have a nuclear weapon. But if we fail to enforce a 
standard that has been in existence for almost 100 years 
regarding weapons of mass destruction we are putting that into 
question in the minds of a lot of observers and creating 
problems for ourselves, where we may get closer to a test that 
cannot be constrained or managed as a consequence of the 
misinterpretation of our word today. So I believe it is 
critical.
    Just two other things I would say. Without any question in 
my mind, if we fail to pass this, those who are working with us 
today with the Syrian opposition, and I know Congressman Engel, 
you know this, we have been working hard to keep them from 
funding bad elements, whether it is al-Nusra or others, which 
they have funded out of frustration because they think they are 
the best fighters and the only people who are going to get the 
job done of getting rid of Assad. And so if we back off and we 
fail to enforce our word here, I promise you that the 
discipline we have put in place with respect to the moderate 
opposition versus bad guys will dissipate immediately and 
people will resort to anybody they can find to help them 
accomplish their goal, and we would have created more extremism 
and a greater problem down the road. So the word will be 
misinterpreted in many ways, not just Iran, Congressman.
    Mr. Engel. Thank you.
    Mr. Secretary, perhaps Secretary Hagel could answer this, 
Secretary Kerry just mentioned the opposition. And I put in a 
bill several months ago which would allow us to aid the well-
vetted Syrian opposition. I don't think that the potential of 
military force we are considering can be looked upon in a 
vacuum. I think that this operation must be utilized as one 
piece of a larger comprehensive Syria strategy. So let me ask 
you, Mr. Secretary, as we downgrade Syria's ability to use 
chemical weapons, will we in turn be degrading Assad's ability 
to attack and suppress the opposition, and will we degrade 
Assad's air force so that he cannot continue to use the sky to 
murder his own people?
    Secretary Hagel. Congressman, I would respond this way. You 
are correct as you assess this one option that we are debating 
today in that it works in parallel with a number of other 
tracks that are ongoing. I think most all of us believe, the 
President believes, everyone at this table believes there is no 
military solution in Syria. It is going to require a political 
resolution. In that regard, the actions that we would take 
would be in parallel to the opposition, strengthening of the 
opposition. It would be in parallel to what Secretary Kerry 
noted, the continuing defections from Assad's military and from 
his regime. It would be in parallel with the international 
community continuing to strengthen their voices and join with 
us in this condemnation. All the other consequences that would 
come from this would be part of it. So that is the way I would 
answer your question. Thank you.
    Chairman Royce. We will go now to the chairman emeritus of 
this committee, Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    We have been aware of Assad's chemical weapons stockpile 
for years, yet we failed to hold him accountable. The United 
Nations has been completely useless at effecting any change in 
Syria, thanks in no small part to Russia and China's persistent 
stonewalling at the Security Council. And Congress has 
certainly had our fair share of missed opportunities. Last 
Congress, the House passed the Iran, North Korea, Syria 
Nonproliferation Reform and Modernization Act overwhelmingly, 
with a vote of 418 and only 2 against. Yet, Mr. Secretary, the 
Senate failed to take any action on it.
    Had the United States been taking a more proactive role in 
Syria by instituting strict sanctions against Assad's regime it 
may have changed his calculations on the use of chemical 
weapons. In order to justify action now against his regime and 
risk further escalating the conflict the President must clearly 
identify what our national security interests are. What are our 
objectives in limited and targeted air strikes? What does 
degradation look like? And what will we do if the initial 
action does not yield the intended result?
    One Senate version of the resolution has a limitation on 
ground troops for combat operations. This sounds like it leaves 
open the possibility of boots on the ground for something other 
than combat operations, like special operations. Is this 
intentional? Will you confirm that under no circumstances will 
we place boots on the ground in Syria?
    We all know we are in a tough fiscal environment. Even a 
limited engagement, if it ends up being only limited, could 
potentially cost taxpayers billions. With members of the Arab 
League so eager for U.S. participation, have they offered to 
offset any of the costs associated with this action?
    Iran and North Korea are carefully watching our next move. 
If we say that the use of chemical weapons is unacceptable, yet 
we fail to act, this will embolden Iran's pursuit of nuclear 
breakout capabilities. A refusal to act in Syria, after the 
President has set such a clear red line, will be seen as a 
green light by the Iranian regime, who will see that we don't 
have the will to back up our words.
    So, gentlemen, what about boots on the ground? The Arab 
League, are they going to pony up? Our objectives? And lastly, 
there is some rumor circulating today that perhaps the House 
will not have a vote on authorization, the Senate will and 
perhaps not on the House side. If you could comment on that.
    Secretary Kerry. Madam Chairwoman, I don't know anything 
about this rumor, so I am not going to comment on it because it 
is a rumor. And it is the first I have heard of it.
    With respect to Arab countries offering to bear costs and 
to assist, the answer is profoundly yes, they have. That offer 
is on the table.
    With respect to boots on the ground, profoundly no. There 
will be no boots on the ground. The President has said that 
again and again. And there is nothing in this authorization 
that should contemplate it. And we reiterate no boots on the 
ground.
    In terms of what you do if it doesn't work, I think I will 
let General Dempsey speak to the question of targeting, which 
he can't go into in detail. But we have absolute confidence 
that what our military undertakes to do, if it is ordered to do 
so, will degrade the capacity of Assad to use these weapons and 
serve as a very strong deterrence. And if it doesn't, then 
there are subsequent possibilities as to how you could 
reinforce that.
    Ms. Ros-Lehtinen. Thank you, Mr. Secretary. And the details 
on the offer and the proposal on the table, what are the 
figures that we are talking about?
    Secretary Kerry. Well, we don't know what action we are 
engaged in right now. But they have been quite significant. I 
mean very significant. In fact, some of them have said that if 
the United States is prepared to go do the whole thing the way 
we have done it previously in other places, they will carry 
that cost. That is how dedicated they are to this. Obviously, 
that is not in the cards and nobody is talking about it, but 
they are talking in serious ways about getting this job done.
    Ms. Ros-Lehtinen. And in terms of other countries being in 
the fight with us with these limited strikes, what other--the 
time is over? Thank you.
    Chairman Royce. The time is up. And we better go to Mr. 
Meeks of New York in order to get through the full panel.
    Mr. Sherman. Mr. Chairman?
    Chairman Royce. Oh, Mr. Sherman is next. Mr. Sherman of 
California then.
    Mr. Sherman. The President drew a red line. Presidents 
often draw red lines in order to deter action. Usually they 
deter that action, to our benefit and at no cost. When the 
President drew that red line, I am not aware of anyone in this 
room who criticized it or disassociated themselves from that 
red line. Now Assad has crossed that red line, it is America's 
red line. If we do not act, Assad will use chemical weapons 
many times in the future. They may be decisively successful for 
him, and dictators for decades to come will learn from Assad's 
lesson that chemical weapons on civilians used on a mass scale 
can be effective and that the 1925 protocol against their use 
is a dead letter.
    In picking targets, gentlemen, you are going to be torn 
between the germane and the effective. Germane would be 
directly related to chemical weapons. But the fact is we want 
Assad to control, store, and keep control of his chemical 
weapons. And so you will be seeking out targets somehow related 
to the creation, storage, control, or delivery of chemical 
weapons. And I think that instead you should focus on punishing 
and deterring Assad by hitting valuable assets that will 
demonstrate to him that it was a military mistake to hit Ghouta 
with chemical weapons. Even air or naval assets unrelated to 
the delivery of chemical weapons will make that lesson clear to 
him.
    We have all learned a searing lesson from over 4,000 
casualties in Iraq, but we should be aware that there are 150 
occasions--and, Mr. Chairman, without objection, I would like 
to put into the record a CRS listing and analysis of 150 
occasions in the last 40 years when America has deployed its 
forces into dangerous or hostile situations. And in most of 
those, we had a limited purpose, limited deployment, and the 
cost was so limited that we have forgotten the incident 
involved. And I hope very much that what you are planning is 
something much more along those lines than Iraq.
    The resolution that was sent to us on August 31 is 
obviously flawed. I sent Secretary Kerry amendments the next 
day, on September 1st. Our colleagues, Mr. Van Hollen and Mr. 
Connolly, have proposed a substitute, as has Senator Menendez. 
I would like to explore with you what elements a good 
resolution would have, knowing that this resolution adds to the 
authority you already have under the War Powers Resolution of 
1973.
    Is it acceptable for this resolution to confirm what you 
have already said, and that is that the resolution itself does 
not add in any way to the powers of the President to put boots 
on the ground in Syria? Is that an acceptable position? 
Secretary Kerry?
    Secretary Kerry. Absolutely.
    Mr. Sherman. Would a time limit of 60 days, indicating that 
you might have other authorities to act beyond those 60 days, 
you might come back to Congress, but what we are authorizing 
now is limited to 60 days, would that be acceptable?
    Secretary Kerry. We would prefer that you have some kind of 
trigger in there with respect to if he were to come back and 
use chemical weapons again, that there would be a capacity to 
respond to that. If you just have a fixed----
    Mr. Sherman. Well, you could always come back to Congress 
or you could have a provision every time he uses chemical 
weapons you get another 60 days.
    Secretary Kerry. That would be acceptable.
    Mr. Sherman. The second, the first, or----
    Secretary Kerry. The second.
    Mr. Sherman. And, finally, would you accept a provision 
that said that you may want to pursue regime change with other 
authorities that you have, including arming the rebels under 
other authority that you have, but that this resolution is 
limited to actions designed to punish and deter the use of 
chemical weapons and not to change the outcome of the civil 
war?
    Secretary Kerry. The preference of the President is to have 
this a narrow authorization so that nobody gets confused here 
and people aren't asked to vote for two different things. One 
thing the President wants is the capacity to enforce the 
international norm with respect to chemical weapons and to make 
our word with respect to that meaningful to the region.
    Mr. Sherman. Well, I know your staff will be working with 
Congress to draft a resolution, and the more carefully tailored 
it is, the more narrow it is, the more likely you are to 
actually succeeded in the House.
    I hope very much, Mr. Chairman, that we are marking up a 
resolution in this committee and considering in regular order.
    And, finally, for the record, if you could explain----
    Chairman Royce. Well, yeah, afterwards we can introduce the 
questions for the record, but we need to go now to Mr. Smith, 
chairman of the Africa Subcommittee.
    Mr. Smith. Thank you, Mr. Chairman. Thank you.
    A New York Times editorial yesterday, Mr. Secretary, or 
Secretaries, said that it was ``alarming'' that President Obama 
did not ``long ago put into place with our allies and partners 
a plan for international action.''
    Their word, ``alarming,'' that we have failed over the 
course of the last several years to do what ought to have been 
done. That is a New York Times editorial--hardly a conservative 
newspaper.
    I have three specifics questions, and I would ask that you, 
to the best of your ability, answer all three.
    Yesterday, Secretary Kerry, you testified that the Obama 
administration wanted to make him--that is Assad, I presume--
regret the decision to use chemical weapons as he has done on 
August 21st and, as we all know, on previous occasions as well. 
First question: Do we have clear proof that Assad himself 
ordered it?
    Second question: In an interview with Chris Wallace on 
Sunday, you said that, ``Actually, Chris, at the very instant 
the planes were in the air on Kosovo, there was a vote in the 
House of Representatives, and the vote did not carry.'' That is 
true. The House of Representatives voted against force against 
Slobodan Milosevic. Your word, ``very instant,'' however, is 
certainly an elastic term. The vote was a full month later. 
Clinton and NATO's bombing of Serbia began on March 24th, and 
the House voted against it on April 28th.
    During that time, there were significant assurances that 
the entire operation would be of short duration, very limited. 
And I know many people had thought, including in Brussels at 
NATO headquarters, that it would last just a few days. It 
lasted 78 days. Four hundred and eighty-eight to five hundred 
and twenty-seven civilian deaths when the bombing occurred in 
Serbia. And, significantly, Milosevic's retaliation was the 
invasion of Kosovo, and that invasion killed about 10,000 
people and put most Kosovar Albanians to flight. And I, like 
perhaps you and others, visited them as refugees.
    How do you define ``limited'' and ``short duration''? And 
what might Assad do in retaliation? And what contingency plans 
do we have when he attacks in other areas that we may not have 
anticipated?
    And, finally, I plan on introducing a resolution when we 
reconvene to authorize the President to establish a specialized 
court, the Syrian war crimes tribunal, to help hold accountable 
all those on either side, including Assad, who have slaughtered 
and raped in Syria. I am wondering how you might think about 
that, as well, whether or not the administration would support 
such a court.
    We have learned lessons from the special court in Sierra 
Leon. We have learned lessons from the Rwandan court and 
certainly learned lessons from the court in Yugoslavia. It has 
to be immediate. And I think it could be a rallying point. You 
yourself said, Mr. Secretary, you would send them to jail. 
Well, let's send them to jail. But killing people and not 
targeting Assad himself may be accountability, but I think 
there are other alternatives.
    I yield.
    Secretary Kerry. Well, Congressman, I actually didn't have 
time yesterday, because of our testimony, to read the New York 
Times editorial, so I would like to read it. But there is a 
plan in place. The London 11, so-called, have been working over 
some period of time, working internationally.
    Last year, Secretary Clinton joined in in convening, with 
the Russians and others, a meeting in Geneva that resulted in 
the Geneva Communique, which set up a process for transition in 
Syria. And that is what we are currently pursuing now together 
with our allies and friends in this endeavor, and that includes 
France, Great Britain, Italy, Germany, the Emirates, Saudis, 
and others.
    So there is an international effort. It may not be--it is 
not working as well as we would like; it hasn't had its impact 
yet fully. But, in addition to that, we have seen the President 
take steps in response to the initial attacks of chemical 
weapons to increase lethal aid to the opposition. That is now 
known, so----
    Mr. Smith. I am almost out of time, with all due respect.
    Secretary Kerry. Okay. Well, let me----
    Mr. Smith. Limited, short duration, a special tribunal on 
war crimes for Syria?
    Secretary Kerry. I understand there been conversations 
already with Syrians and other countries about a special court. 
Perhaps we can have more luck with that. I would certainly 
welcome an effort to hold people accountable for those kinds of 
abuses, but, as you know, the international courts have not 
fared well with both parties in the Congress.
    Chairman Royce. Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    In the interest of time, I also would like to submit my 
statement for----
    Chairman Royce. Without objection.
    Mr. Meeks. Thank you.
    First let me state that I agree with the President's 
decision to come to Congress for the authorization for the use 
of U.S. military force to address the use of chemical weapons 
by Syrian forces. I think it was the appropriate decision both 
constitutionally and morally.
    And in making my determination on the use of force, I try 
to look at it through both a short- and long-term interest in 
the security of America as my paramount focus. To that end, I 
believe that the use of chemical weapons by the Assad region is 
indeed a flagrant violation of international norms against the 
use of such weapons, and this and other repugnant acts by 
Syrian forces are indeed against U.S. interests.
    But it is not only against U.S. interests; it is also 
against the international interests. So if we act in a 
unilateral way, I have huge concerns; that if there is a 
violation, we should act, especially militarily, in a 
multilateral way.
    We have regional countries--and I have been listening to 
the testimony here, but I don't know where NATO is. At least I 
have heard NATO, who basically said they have condemned it, but 
I don't hear them saying that they will step up with us 
militarily. I have not heard the Arab union, the Arab League, 
step up with us.
    I have heard people condemn--in fact, Mr. Secretary, you 
said the world is watching what we are doing, but I have yet to 
hear some concrete things of what the world is doing. I am 
fearful that they will isolate the United States, where we are 
only doing something unilateral while the world just sits back 
and watch, when there is an international violation that took 
place.
    And you stated, Mr. Secretary, that it matters today that 
we are working as an international community to rid the world 
of its worst weapons. And I couldn't agree with you more. But I 
don't see or hear, unless there is another setting that I need 
to be in, where the world is stepping up and agreeing to act 
with us militarily, not just condemning the acts, but acting on 
that condemnation of the acts with us in a military fashion.
    And you stated during the hearing yesterday, Mr. Secretary, 
you indicated that while Russia has obstructed efforts to react 
to Assad's regime's use of chemical weapons, there are other 
ways that Russia may yet prove helpful. Would you please 
elaborate on what, if any, role Russia has or can play in 
bringing about a political solution in Syria? And how is Russia 
being engaged, given the Obama administration's correct 
assertion that there is no military solution to the crisis in 
Syria?
    And quickly, General Dempsey, you know, I have serious 
concerns, as I have stated, about any action that is not 
broadly supported internationally. And one of my concerns is 
the possibility of unintended consequences, including the 
prospects of prolonged military engagement.
    And in mid-August, you sent Representative Engel a letter. 
You expressed that there are certainly actions that the U.S. 
could take, short of tipping the balance of Syrian conflict, 
that could impose a cost on them for abhorrent behavior. You 
also indicated that at least some of those options would, and I 
quote, ``escalate and potentially further commit the United 
States to the conflict. It would not be militarily decisive, 
but it would commit us decisively to the conflict.''
    Can you elaborate on what you meant when you stated that we 
could be decisively committed to the conflict? And if the U.S. 
commits a limited military strike in Syria, how do you minimize 
the possibility of prolonged commitment? And if the 
international supports remain as limited as it seems now, are 
there risks of a longer engagement which are more pronounced?
    Secretary Kerry. Go ahead, General.
    General Dempsey. You are going to have to take yours for 
the record, I predict.
    Congressman, in the time remaining, I think it is the focus 
and the purpose of the military action that will give us the 
best chance of limiting it in time and in commitment.
    In other words, my letter to Representative Engel talked 
about answering the question what would it take to tip the 
scales in favor of the opposition. If we were to take military 
action ourselves to support the opposition, that is a very 
long--that is a long prospect.
    What we are talking about here is not that. The purpose is 
to deter and degrade for the specific purpose of chemical 
weapons. And I think it is the purpose that allows us to say 
with some confidence that our intent is to limit it.
    Now, that is not to say that I discount the risk of 
escalation, which I can never discount, but I can tell you we 
have mitigated it to as low as possible.
    Chairman Royce. We will go now to Mr. Chabot, chairman of 
the Asia Subcommittee.
    Mr. Chabot. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    I know you would like me to tell you about the number of 
people that came up to me in the airport this morning and urged 
me to stand with President Obama on the Syrian issue, or that 
my phones have been ringing off the hook with callers 
supporting the administration's position, but I think we all 
know that wouldn't be accurate.
    Nevertheless, I am trying to approach your potential 
resolution with an open mind and will certainly consider any 
argument that the administration might make in favor of the use 
of force against the Assad regime.
    That being said, I do, however, have some serious concerns 
and I think many of my colleagues on this committee probably 
share a number of them. Whether we ultimately support a 
resolution on the use of force or not will depend on how these 
concerns are addressed in the coming days by the 
administration, and this, of course, today is part of that 
process. I have a number of questions, so I will forgo a long 
statement and get right into them.
    Secretary Kerry, President Obama did not come to Congress 
seeking a resolution on the use of force in Libya. What is the 
difference between Libya and Syria when it comes to seeking 
congressional authorization?
    Secretary Kerry. The difference is that, in the case of 
Libya, you had already passed a U.N. Security Council 
resolution and an Arab League resolution and a Gulf States 
Cooperation resolution, and you had a man who we knew was prone 
to follow through on his word promising that he was going to 
kill like dogs all of the people in Benghazi. And so there was 
an emergency and an urgency to responding, in which the United 
States provided air support while the French and the British 
carried out the mission.
    So I think, under those circumstances, the President felt 
the urgency, the emergency of protecting life, and a capacity 
that had already been granted through the international 
community. This is different----
    Mr. Chabot. Let me ask you this.
    Secretary Kerry [continuing]. Which is why he is coming to 
Congress.
    Mr. Chabot. Thank you.
    Let me ask you this. Had the British Parliament not 
rejected Prime Minister Cameron on the Syria issue, would 
President Obama have bothered to come to Congress?
    Secretary Kerry. Oh, I believe he absolutely would have. I 
think the President was thinking about this. There were 
discussions, to some degree, about whether or not it should 
happen. He hadn't made up his mind. He certainly didn't 
announce it to us. But my personal belief is, yes----
    Mr. Chabot. Okay.
    Secretary Kerry [continuing]. I think the President 
believed it was important. And there were people making that 
argument, particularly on his legal team.
    Mr. Chabot. Thank you.
    Mr. Secretary, you indicated that you didn't have time to 
read the New York Times editorial today, so I assume you 
probably haven't had time to read Tom Friedman's column in 
today's New York Times.
    Secretary Kerry. Actually, I am familiar with his column 
today.
    Mr. Chabot. All right. Well, let me refer to that piece. I 
don't always agree with Mr. Friedman; in fact, I seldom do. But 
I tend to agree with his assessment of the Syrian situation 
today in which he says, ``Rather than firing some missiles into 
Syria, a more effective measure would be arming and assisting 
the more moderate rebel groups in Syria.''
    My only concern is, as Mr. Smith and some others have 
already referred to today, it may be too late for that, as 
failing to arm these groups months or even years ago has 
allowed al-Qaeda-connected rebel groups to become more 
influential and powerful.
    Would you comment, Mr. Secretary?
    Secretary Kerry. Absolutely. I am delighted to. And I think 
that what Tom Friedman said--and I often do agree with him; I 
don't happen to on this particular occasion because he said you 
should arm and shame.
    Mr. Chabot. Right.
    Secretary Kerry. Well, I don't think Assad is going to be 
shamed into any particular activity, nor the Russians or 
others. And there is arming taking place, but if you simply arm 
and say that your policy is to shame and you back off, 
deteriorating his capacity to deliver chemical weapons, and 
say, okay, that doesn't matter to us, you have opened Pandora's 
box for the use of chemical weapons. And all those people you 
arm will wind up being the victims of a chemical weapons 
attack.
    So, with all due respect to Tom Friedman, who is most often 
correct, I think on this occasion it is absolutely vital that 
we send the message and deteriorate his capacity----
    Mr. Chabot. Thank you.
    Secretary Kerry [continuing]. And hold him accountable.
    Mr. Chabot. Let me stop you if I can. I only have a short 
period of time.
    Secretary Kerry. And we have given him impunity with 
respect to any future use.
    Mr. Chabot. Thank you.
    Last Friday, all indications were that the President had 
made the decision to take military action. Then things 
obviously changed and he decided to consult with Congress. What 
made the President change his mind?
    Secretary Kerry. Well, you would have to ask the President. 
I don't know completely. I think he----
    Mr. Chabot. I assume you have discussed this with him.
    Secretary Kerry. We did discuss it, and what the President 
said was he felt very, very strongly that it was important for 
us to be in our strongest posture, that the United States 
needed to speak with one voice. He knew that you, in the 
consultations--I mean, you all asked for consultations. We 
began a process of consultation. We heard from you. And many of 
you said, we think it is really important to come to Congress.
    I know Mike Rogers, in particular, in one conversation, 
talked about, you know, the need to not have the display of 
your--you know, you have a group of people you are opposed to, 
and you are sort of fighting the Congress and fighting with 
your allies and fighting with the U.N., try to unify it to the 
greatest degree you can. I think that was great common sense 
from Chairman Rogers. And the President decided, accordingly, 
to try to put America in the strongest position possible.
    Mr. Chabot. Thank you, Mr. Secretary.
    Chairman Royce. We need to go to Mr. Sires from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you for being here this afternoon.
    Mr. Secretary, one of the things that I read today which 
disturbed me a great deal is that, by the end of the year, we 
are going to have about 3 million refugees from the Syria 
conflict. And I am concerned about the impact that striking 
Syria will have on increasing the number of refugees. And I am 
concerned about how it is going to destabilize our friends in 
the region. Jordan is already overburdened. Turkey is already 
experiencing a burden.
    Are we anticipating, are we making policies to alleviate 
what is coming, this avalanche of refugees? Because by the end 
of the year, they expect 3 million refugees, and that could be 
a bigger destabilizing factor in that region.
    Secretary Kerry. Congressman, this brings you squarely into 
a confrontation with this question that is fundamental to the 
choice you are going to make. There are risks of acting, but 
believe me, it is our judgment collectively and the President's 
that the greater risks are not acting.
    You have 1.6 million to 2 million refugees today without 
our acting, and every prediction is that is going to get worse. 
I guarantee you that if we don't act and Assad is able to rain 
gas down on his people, you watch the numbers of refugees.
    The greater capacity to prevent the numbers of refugees in 
this catastrophe that is building in the region is, frankly, to 
degrade his chemical capacity, help the opposition, and get to 
a point where you have a state of Syria that is still intact 
enough to actually have a negotiation for the Geneva I 
implementation of a transition government. That is the 
strategy, that is the goal.
    And we have no chance of getting there if we back off and 
give him a message of impunity. We will have said to him, 
nobody cares, gas your people, you do what you need to stay in 
office, and we are backing off. That would be--I honestly 
find--I mean, that would be one of those moments in history 
that will live in infamy. And there are some of those moments: 
Munich; a ship off the coast of Florida that was sent back 
filled with Jews who then lost their lives to gas because we 
didn't receive them.
    There are moments where you have to make a decision, and I 
think this is one of those moments.
    Mr. Sires. Are we making any new policies? I know that we 
are already contributing more money than anybody else to assist 
the refugees. Are we----
    Secretary Kerry. The world needs to step up on this refugee 
issue. The United States proudly is providing more than anybody 
else, but this is unsustainable.
    There are other discussions taking place now as to how we 
might respond to this ongoing crisis in nonmilitary terms. But 
I think that there are options available to us, but I don't 
want to get ahead of ourselves.
    Mr. Sires. General, this military action that we are 
taking, I assume that we are coordinating with our friends in 
the region?
    General Dempsey. We are, Congressman.
    Mr. Sires. And do you anticipate them going along with us 
if it increases the need for them to participate?
    General Dempsey. Well, we are reaching out to them. Some 
will support us directly and some indirectly with basing and 
overflight.
    Mr. Sires. Okay.
    Thank you, Chairman.
    Chairman Royce. Thank you.
    We are going to go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, for your and Ileana 
Ros-Lehtinen's longtime leadership to avoid the crisis that we 
face today.
    And, General Dempsey, Secretary Hagel, Secretary Kerry, 
thank you for being here today.
    We are here to learn more about a very serious issue, a 
United States strike on Syria. As a member of this 
subcommittee, as chairman of the House Armed Services Military 
Personnel Subcommittee, as a 31-year veteran myself of the 
South Carolina National Guard and Army Reserve, but most 
particularly as the grateful father of four sons currently 
serving in the United States military, I am very concerned 
about what we are hearing today. I have many questions 
concerning the President's proposed strike and the risk to our 
military, American families, and our allies, particularly 
neighboring Israel, Jordan, Turkey, and Iraq.
    Secretary Hagel, some have characterized the plans for the 
strike as leaked to the press as ``a pinprick'' that will not 
prevent President Assad from resuming his use of chemical 
weapons. How severely do you intend to degrade his 
capabilities? What will you do if he resumes chemical weapons? 
Where did these chemical weapons come from?
    Secretary Hagel. Congressman, thank you. Thank you for your 
service and for your sons' service.
    I can assure you, on the first point you made, I can speak 
for General Dempsey and all of our military leaders that there 
is no higher purpose that we all have, nor more significant 
responsibility, than the protection of our men and women who 
serve in uniform. They are our highest priority.
    As to your other questions, the President has said, he 
stated it again yesterday in a meeting in the Cabinet Room with 
the leaders of Congress--and I think Congressman Engel was 
there, as was Chairman Royce--this would not be a pinprick. 
Those were his words. This would be a significant strike that 
would, in fact, degrade his capability.
    I think the three of us have noted, you have all noted and 
are much aware, that any action carries with it risk, any 
action with it carries with it consequence, but also does 
inaction, as Secretary Kerry has noted.
    I can assure you, as Secretary of Defense, that the 
Department of Defense, our leaders, have spent days and days 
going over every option, every contingency, everything you 
talked about, and more--security of our forces, security of our 
Embassies, consulates, working with the State Department, 
everything that we needed to factor in if we took action. The 
President insisted on that. He wanted to see those plans--
collateral damage, innocent people being hurt.
    We think that the options that we have given him, first, 
would be effective, would, in fact, carry out the intent of 
what we have----
    Mr. Wilson. Mr. Secretary, I don't mean to be rude, but 
time is flying. Where did the chemical weapons come from?
    Secretary Hagel. Well, there is no secret that the Assad 
regime has had chemical weapons, significant stockpiles of 
chemical weapons.
    Mr. Wilson. From a particular country?
    Secretary Hagel. Well, the Russians supply them; others are 
supplying them with those chemical weapons. They make some 
themselves.
    Mr. Wilson. And, Secretary Kerry, on April 25th, the White 
House legislative director, Miguel Rodriguez, wrote, ``Our 
intelligence community does assess with varying degrees of 
confidence that the Syrian regime has used chemical weapons.''
    With the President's red line, why was there no call for 
military response in April? Was it delayed to divert attention 
today from the Benghazi/IRS/NSA scandals, the failure of 
Obamacare enforcement, the tragedy of the White House-drafted 
sequestration, or the upcoming debt-limit vote? Again, why was 
there no call for military response 4 months ago when the 
President's red line was crossed?
    Secretary Kerry. Well, the reason is very simple. The 
President made a decision to change his policy, but he didn't 
believe that the evidence was so overwhelming. It was 
significant, it was clear it had happened but on a scale that 
he felt merited the increase of assistance and the 
announcements that he made with respect to the type of aid that 
he would provide the opposition. So he did respond.
    This is so egregious and now builds on the conclusions of 
our intel community as to the numbers of times, but such a 
clear case, so compelling and urgent with respect to the 
flagrancy of the abuse, that the President thinks that as a 
matter of conscience and as a matter of policy the best route 
to proceed is through the military action now.
    Mr. Wilson. But in April it was very clear, chemical 
weapons----
    Secretary Kerry. Yeah, but the President----
    Mr. Wilson. Syria was identified, Mr. Secretary. Action 
should have been taken then.
    Thank you.
    Secretary Kerry. But the President didn't believe it was a 
compelling enough case to win the support of the American 
people as well as the world. This is.
    The President did respond. He upgraded what we were doing 
very significantly. He came to Congress. As a matter of fact, 
many of you know we had to struggle to get the Congress to 
agree to let him do the things that he wanted to do to upgrade 
that effort.
    Mr. Wilson. But chemical----
    Chairman Royce. Excuse me. Your time has expired. We need 
to go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you and 
Mr. Engel for holding this very important meeting.
    And I thank our Secretaries of State and Defense and 
General Dempsey for being here.
    Mr. Chairman, late last night, we delivered to all Members 
of Congress and I physically delivered a copy today of an 
alternative resolution, very narrowly drawn, that actually 
codifies what the President has said he wishes to accomplish 
and codifies no boots on the ground to try to make sure that we 
stay focused on the issue and a response to that issue and 
possibly provide the White House with a path to authorization 
here in the Congress. I commend it to both Secretaries and urge 
you to look at it. And, Mr. Chairman, I hope we will be able to 
mark it up.
    When I looked at this issue, I used a filter with five 
aspects to it. And I commend it to my colleagues if they find 
it helpful. The first was, is the evidence strongly compelling 
and convincing, if not incontrovertible? Secondly, if so, what 
action is thereby warranted? Thirdly, what is the efficacy of 
the proposed action and what are the risks? Fourth, what is the 
efficacy and what are the risks of doing nothing?
    And, finally, if the latter outweighs the former, how can 
Congress provide an authorization that narrowly is drawn to 
ensure no other involvement but that does two things: It 
enforces international law with respect to the ban on chemical 
weapons, and it deters future use of such weapons?
    All of this is a matter of judgment. Everything I have 
heard from my colleagues on both sides of the aisle this week 
has been sincere and heartfelt. And I pray that we proceed on a 
nonpartisan basis to try to tackle this issue with respecting 
everybody's ultimate judgment, because it is a difficult issue 
and does not lend itself to facile answers.
    I have come to the conclusion myself that the evidence is 
convincing and compelling. I also believe that the overhang of 
Iraq has many of us chained. Iraq was based on faulty and 
shoddy intelligence that was also misused to justify an a 
priori commitment to invade another country.
    That is not the case here. We are not dealing with a 
President who is hungering to invade another country or put 
boots on the ground. In fact, quite obviously, his reluctance 
to do that is why we are here. We are also not dealing with 
prospective surmise about whether such weapons exist and 
whether or not he might use them. There is no doubt the weapons 
exist, the stockpiles are there, and there is no doubt he used 
them. So the question for us is, what do we do about it?
    Mr. Secretary, let me ask one question. If we do nothing--
and, Secretary Hagel, I invite you to answer, as well, keeping 
in mind we have a limited amount of time--if we do nothing, 
what is the likelihood, in your judgment, that Bashar al-Assad 
will use chemical weapons as a routine weapon to turn the tide 
of the civil war?
    Secretary Hagel. I think the likelihood is very high that 
he would use them again.
    Mr. Connolly. Mr. Secretary?
    Secretary Kerry. Well, I agree completely. I might even put 
it at 100 percent. And, well, you should go check the intel on 
it; I think you will be convinced. But I would say probably 100 
percent.
    Mr. Connolly. And, Mr. Secretary, if you are right that it 
is 100 percent, we will see these weapons now used routinely in 
the civil war to turn the tide if we do nothing. What is the 
probability that such weapons will also then get into the hands 
of Hezbollah and other elements supporting the Assad regime 
and, thus, perhaps proliferate the region against friend and 
foe alike?
    Secretary Kerry. Well, I can't give you that probability. I 
just don't know what it is.
    I do know this: That there are three principal supporters 
of Assad, and the rest of the world is in horror of what is 
happening. The three principal supporters are Iran, Hezbollah, 
and Russia. And if Iran and Hezbollah are allowed to both see 
him stay in power as well as do so with the use of chemical 
weapons, that is extraordinarily dangerous for Jordan, Israel, 
Lebanon, and our interests.
    Chairman Royce. We need to go to the chairman of the 
Homeland Security Committee, Mr. Michael McCaul from Texas.
    Mr. McCaul. I thank the chairman.
    I thank the Secretaries for being here. And, General 
Dempsey, thank you for being here, as well.
    Next week, we commemorate the 12th anniversary of 9/11. It 
was al-Qaeda that hit the World Trade Center. It was al-Qaeda 
that hit the Pentagon down the street from here. Al-Qaeda is 
the enemy, and before 9/11 al-Qaeda was the enemy. As chairman 
of Homeland Security Committee, I want to make sure that never 
happens again. And I know you share that, as well.
    I think what gives the Congress great pause and the 
American public great pause is there is no good outcome here. 
They don't see a good side versus a bad side. They see Assad as 
a bad actor who has used chemical weapons. There is no question 
about that. But then who is the other side? Who are the rebel 
forces? Who are they? I ask that in my briefings all the time.
    And every time I get briefed on this, it gets worse and 
worse, because the majority now of these rebels forces--and I 
say majority now--are radical Islamists pouring in from all 
over the world to come to Syria for the fight. And my concern 
is any strike against this regime, as bad as it is, will 
empower these radical Islamists, these extremists.
    And we have seen this movie before. We have seen 
Afghanistan. We have seen what happened in Egypt. We saw what 
happened in Libya. We saw what the Arab Spring has brought us, 
and it is not good. They filled the vacuum; they have filled a 
vacuum.
    So my greatest concern when we look at Syria is who is 
going to fill the vacuum when the Assad regime falls, which we 
know that it will. Who is going to fill that vacuum? Are the 
rebel forces, the extremists, going to take over not only the 
government but these weapons? Because they are the ones most 
likely to use these weapons against Americans in the United 
States. And while, you know, those images of children in 
Damascus are horrific, I do not want to see those images in the 
United States. And that is my grave concern. And this is a very 
dangerous step that we are taking, and I believe that we have 
to be very careful in how we proceed.
    And so, with that and with all due respect, I think this is 
well-intentioned, but I have these concerns. And I want to hear 
from both Secretaries and the General as to whether you share 
these concerns and what you are going to doing to stop that 
outcome. Because that is the absolute worst scenario, worst 
outcome that could happen.
    Secretary Kerry. Congressman, I was just trying to make 
sure--I apologize for interrupting. I think it would be helpful 
to you, as you were asking the question, because I am very 
concerned about the foundation of your question, the premise of 
it.
    A woman by the name of Elizabeth Bagley, B-a-g-l-e-y, just 
wrote an article. She works with the Institute of War. She is 
fluent in Arabic and has spent an enormous amount of time 
studying the opposition, studying Syria. She just published 
this the other day, a very interesting article which I commend 
to you.
    The fact is that sitting behind me, incidentally, is 
Ambassador Robert Ford. He is our Ambassador to Syria. He has 
spent an enormous amount of time with the opposition, working 
with them and helping us to understand this dynamic.
    I just don't agree that a majority are al-Qaeda and the bad 
guys. That is not true. There are about 70,000 to 100,000 
oppositionists. About somewhere maybe 15 to 25 percent might be 
in one group or another who are what we would deem to be bad 
guys. There are many different groups--al-Nusra, al-Shamra. 
There are different entities. And sometimes they are fighting 
each other, even now.
    The general belief, there is a real moderate opposition 
that exists. General Idris is running the military arm of that. 
And our allies in this effort, our friends, from the Saudis, to 
the Emiratis to the Qataris and others, are now in a 
disciplined way funneling assistance through General Idris. And 
the moderate opposition is getting stronger as a result of 
that.
    Mr. McCaul. And I have 40 seconds, but I--there are 
moderates there, but the briefings I have received, unless I 
have gotten different ones or inaccurate briefings, is that 50 
percent and rising. These fighters coming globally are not 
coming in as moderates; they are coming in as jihadists. And 
that is my concern. And----
    Secretary Kerry. There are jihadists----
    Mr. McCaul [continuing]. I want to hear from the Secretary, 
also, and the General, as well.
    Secretary Hagel. Well, I agree with Secretary Kerry's 
analysis. But let me just remind us all, and you know this very 
well, Congressman, especially with your responsibilities as 
chairman of the Homeland Security Committee. This is an 
imperfect situation. There are no good options here. This is 
complicated. There is no clarity. Every point you made, the 
complications of the various terrorist groups which we have 
noted, are there. They are in play. This is a specifically 
difficult part of us trying to sort out who we would support, 
how we would support them. So I don't question that.
    But I do think that Secretary Kerry's points are correct, 
that we are seeing some movement on the inside in the right 
direction.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Engel, thanks for calling this 
very important hearing.
    And, Secretary Kerry, Secretary Hagel, General Dempsey, 
thanks for being here.
    I believe we stand at a pivotal moment where Congress is 
either going to uphold its duty to protect our national 
security or we are going to retreat from our moral and 
strategic obligations. I believe our vote on what will have to 
be ultimately a very narrowly drawn resolution will determine 
whether Congress stands up for human rights or puts us on a 
dangerous path to isolation, whether Congress will increase 
American influence in the Middle East or allow our power to 
dramatically shrink.
    I stand behind the President's request for limited and 
targeted strikes without U.S. troops on the ground against a 
regime that is guilty of heinous chemical weapons attacks on 
its own people.
    And I know that this is a difficult decision. I know that 
some of my colleagues wish that we had done a lot more before 
now. And I know that my colleagues, other colleagues, wish to 
do nothing now. And I acknowledge the difficulty of being 
unable to predict Assad's next move. Secretary Hagel, you spoke 
to that.
    This is a hard choice, and I don't think any of us relish 
making it. No use of force can ever be taken lightly. But 
inaction here, I believe, will dramatically harm our national 
security by emboldening the vile Syrian regime, its terrorist 
proxies, and its Iranian patron.
    I think it is essential that the United States send an 
unequivocal message to Assad and to other brutal regimes around 
the world, especially Iran, that when the United States 
Congress, when the President, and when every civilized nation 
on Earth says that you cannot gas innocent children to death 
and you can't use chemical weapons and weapons of mass 
destruction, that we mean it. I believe America's credibility 
is on the line in Syria.
    We all saw the gut-wrenching images of children, of women, 
of families lying dead, cruelly and coldly murdered by Assad. 
This strike, if it is to occur, is about preventing such 
atrocities now and in the future, preventing the continued use 
of chemical weapons in Syria, and preventing those weapons from 
being used by terrorist groups like Hezbollah that threaten our 
allies and our citizens.
    But American credibility is also on the line in Iran. Much 
like the red line set in Syria, the President has and this 
committee has, in strongly bipartisan fashion, set a clear red 
line that we will not allow Iran to obtain nuclear-weapons 
capability. If Congress votes down a limited authorization, 
then to Iran's leaders our red line against their development 
of nuclear weapons is meaningless. The sanctions that we passed 
unanimously out of this committee and 400 Members supported on 
the House floor will be rendered largely worthless because they 
are not backed up by a credible threat of force.
    Secretary Kerry, I believe if we want to do everything in 
our power to solve the Iranian nuclear issue without military 
action, then we must support this authorization. By authorizing 
use of force against Syria, America will make abundantly clear 
to the world, including Iran, that using chemical weapons or 
defying international law in pursuit of nuclear weapons will 
not be tolerated by this Nation.
    So make no mistake, this resolution is about Syria and 
holding Assad accountable, but it is also about Iran and 
whether this Congress will make it more likely or less likely 
that that nation obtain nuclear weapons.
    I haven't come to this decision lightly. I don't want to be 
in this position. None of us do. But we didn't put ourselves in 
this position. The President didn't put ourselves in this 
position. Bashar al-Assad put us in this position when he chose 
to gas his own people.
    Now, Secretary Kerry, a lot of people have come up to me 
and said that they are disgusted by what they see, but the 
question they ask is, why does America always need to be the 
world's policeman? So I ask you, why should the U.S. lead this 
effort? And will we learn which are the 34 nations and 
organizations who have said they will support our action and 
how they are prepared to support it?
    Secretary Kerry. Well, the United States of America is not 
being the world's policeman. The United States of America is 
joining with other countries in upholding an international 
standard that 184 nations have joined into.
    Obviously, we have a greater capacity. We are blessed with 
an extraordinarily capable military that through the years the 
American people have invested in in order to protect our 
security interests. Our security interests are directly 
involved in what is happening in the Middle East. Our security 
interests are directly threatened with respect to Assad's use 
of these chemical weapons.
    So we are building a support with other countries, among 
them the Arab League that announced its condemnation of this, 
specific countries that have talked in terms of acting, Saudi 
Arabia, the Emirates, the Qataris, the Turks, and the French. 
Obviously, the British Government sought to, felt it should. 
They had a different vote, but that doesn't--in fact, that, I 
think, raises the stakes in terms of our holding ourselves 
accountable to a multilateral effort, to a multilateral 
standard, in which the United States is the most 
technologically advanced partner.
    Chairman Royce. We go now to Mr. Ted Poe, the chairman of 
the Terrorism and Nonproliferation Subcommittee.
    Mr. Poe. Thank you, Mr. Chairman.
    We have heard a lot today about credibility of the United 
States. It seems to me that we have a credibility problem 
because our foreign policy in the Middle East is inconsistent. 
Our enemies really don't know what our foreign policy is, our 
friends don't know what it is, and I am not so sure Americans 
know what our foreign policy is in the Middle East. And we have 
seen it play out with different reasons, going into different 
countries, removing people from leadership and putting somebody 
else in, or being approving of it, tacitly approving of it.
    I, like my friend Mr. McCaul from Austin, are concerned 
about the players on both sides. There is no pure side in this 
civil war. You have Hezbollah, a bunch of bad guys, on one 
side, and you have the other terrorist groups on the other 
side, including al-Nusra and al-Sharam. I do believe that these 
are powerful groups on both sides. History will find out who 
ends up winning this civil war. And then you factor in the 
religious connotation in this civil war, and you really do have 
a real problem. We do have a real problem on our hands.
    My concern is now, specifically, we want to do something to 
punish Mr. Bad Guy Assad. No question about it, he is a bad 
guy. He is wasting good air breathing. But we are just going to 
shoot a shell over the bow. We are not going to take him out, 
because we don't want to destabilize the civil war going on 
between two different sides, if I understand what that policy 
is.
    So let's do that. Let's assume we do that. I am going to 
ask General Dempsey this question first. Assume we do that, 
whatever it is, to destabilize the weapons of mass destruction, 
get rid of them. I assume that is what we are trying to do, 
eliminate the weapons of mass destruction, even though, as 
Secretary Hagel said, they are getting those things from 
Russia, which are they going to give them more weapons? I don't 
know.
    Assume we do that. Assad fights back. He doesn't just take 
it; he retaliates against us or lets Iran retaliate against 
Israel, all because we have come into this civil war. So they 
shoot back. Then what do we do? Once Americans are engaged now 
in an escalated specific strike, not by our choosing but by 
their choosing, do we escalate or do we not fight back?
    And I know, General Dempsey, you have a tough situation on 
your hands. What do we do if they literally shoot back at 
Americans, or our friends the Israelis?
    General Dempsey. First, just to clarify, this isn't about 
eliminating chemical weapons. That is not possible, given the 
number and the distribution of them. It is about convincing the 
Assad regime that it is unacceptable for them to use them, and 
that is the limit of this military operation.
    We are postured for the possibility of retaliation, and I 
can assure you that our regional partners are, as well.
    Mr. Poe. Let me just ask that question with a little more 
clarification from you, if you can, General. I know you are in 
the military and you are to the point, and that is great. We 
are glad you are in charge.
    Can you see that escalating, though, with U.S. military 
involvement in the region? Have you made a contingency plan for 
that happening, whatever their reaction is, the Syrians' 
reaction to us specifically? Have you made contingency plans 
for us being in an escalated military operation in the region?
    General Dempsey. In the spirit of your compliment on my 
conciseness, yes.
    Mr. Poe. And do you see escalation as a possibility, U.S. 
military escalation in the region as a possibility?
    General Dempsey. Well, I can never drive the risk to 
escalation to zero, but I think that the limited purpose, the 
partnerships we have in the region, the contributions that we 
will seek from others I think begins to limit that risk.
    Mr. Poe. One last question, since I am nearly out of time 
here.
    General Dempsey, you mentioned earlier that you are 
concerned about removing Assad from power. Will you elaborate 
on that? And if so, what is your elaboration?
    General Dempsey. Well, I still--again, separate from this 
conversation, which is about the limited purpose of deterring 
and degrading--I still am cautious about whether we should use 
U.S. military force in support of the opposition for the 
purpose of tipping the balance. I think there are other ways we 
can contribute to that through the development of a moderate 
opposition. But I remain cautious about taking the opposition's 
role here in the civil war.
    Mr. Poe. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Brian Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    That Bashar al-Assad used chemical weapons I think is 
clear, compelling, and irrefutable. However, I think that 
facts, experience, and history are all needed here, as well. 
The situation in Syria is that of a national civil war, an 
ethnic and sectarian conflict that America cannot solve and 
should not try to. This is not a fight for freedom and 
democracy; there is no democracy movement in Syria. There is no 
unifying vision or social contract, not a constitution or even 
a preamble of what Syria wants to become.
    This is nothing more than a fight for control between two 
sectarian factions: An Alawite faction, or a militia, with 
airpower, supported by the Assad regime; and a mix of Islamic 
militias, estimated to be about 1,000, with no airpower. This 
is a conflict between a brutal and murderous dictator and an 
opposition whose best fighters are represented by al-Qaeda 
affiliates and Islamic extremists bent on creating an Islamist 
state in Syria. There are no good options, military options, 
for the United States in Syria.
    The lesson in Syria, as in Iraq and Afghanistan, is that 
civil wars have to be fought internally and that political 
reconciliation cannot come from without. It has to come from 
within, and that can't be imposed by outside influences. We 
know that from our own history. While the Syrian civil war has 
caused 100,000 deaths in a country of 23 million, the American 
civil war caused 675,000 deaths from a young nation of 34 
million people.
    After spending $2 trillion in Iraq and Afghanistan, 
representing $40,000 in debt for every American family, and the 
loss of 6,668 American lives, and the physical and mental 
destruction of tens of thousands of more young Americans, Iraq 
is as violent today as any time in its history and Afghanistan 
is as poor and as corrupt as it has always been.
    The American people are sick and tired of war. It is time 
to nation-build in America and invest in the growth of the 
American economy.
    Bashar al-Assad used chemical weapons on his own people, 
and that is morally reprehensible for certain. He should be 
condemned universally by the international community, and stiff 
sanctions should be imposed. He should be indicted as a war 
criminal in the international tribunal for his murderous deeds.
    Unfortunately, the use of chemical weapons in this part of 
the world is not new. Saddam Hussein used them in the Iraq-Iran 
War between 1983 and 1988 and again against his own civilian 
population in northern Iraq in 1991. And, unfortunately, the 
stockpiling and use of mustard gas and sarin, thousands of tons 
of chemical weapons, is all too common in the Middle East 
today, dating back decades.
    The international support for the United States-led 
military strike in Syria, however surgical and limited in scope 
and time, consists of 2 countries, Turkey and France, out of 
194 countries. The rest of the international community but for 
China and Russia says, ``We support you, America, in your 
military strike so long as we don't have to do anything.'' The 
Arab League's response to this crisis is pathetically weak and, 
given their strategic interest, a joke.
    So here we are, left with trying to topple the last 
minority regime in the Middle East and, for the third time in a 
decade, entering a national civil war in that part of the world 
essentially alone again.
    Secretary Kerry, you spoke of the history of the world's 
response to the use of chemical weapons. Given that history, 
one would think that more countries would join the U.S. in 
participating--not supporting--in participating in a military 
strike against Syria. What gives?
    Secretary Kerry. Well, Congressman, let me just begin, I 
will try to be very, very quick here. First of all, I regret to 
say it, I don't want to make this debate about what is 
happening in terms of regime change and the larger issues. But 
I just want to clarify. A fruit vendor who was tired of 
corruption and of being slapped around started the Arab Spring 
in Tunisia, and they threw out a dictator that had been there 
for a long period of time, the President. In Tahrir Square it 
was a bunch of young people with their modern technology, 
Googling each other and Facebooking, so forth, who organized a 
revolution. It wasn't the Muslim Brotherhood. Had nothing do 
with religion. It had to do with a generational revolution of 
people looking for their freedom, their opportunity, and their 
aspirations to be met.
    Same thing happened in Syria. And in Syria, that opposition 
was met with violence by Assad. And so that is what has 
happened here. Now, the moderate opposition is in fact 
committed to democracy. It is committed to protection of all 
minority rights, to an inclusivity. They want an election in 
the future of Syria. So I don't want to have a debate about 
that because this is not about regime change. This is about the 
enforcement of the standard with respect to chemical weapons. 
That is what this is about.
    Chairman Royce. We are going to go to Matt Salmon.
    Secretary Kerry. The President is asking for limited 
authority to enforce that standard, not to deal with all those 
other issues.
    Chairman Royce. Matt Salmon of Arizona, chairman of the 
Western Hemisphere Subcommittee.
    Mr. Salmon. Thank you.
    Secretary Kerry, let me first congratulate the President on 
bringing this matter to the Congress, as I believe he is 
constitutionally required to do. I, for one, am very happy that 
he has chosen to do this. He said just this morning that he 
didn't draw a red line, the world did, with the ratification of 
the Chemical Weapons Convention treaty. Yet where is the rest 
of the world in the response? Why are we looking at a near go-
it-alone military mission? You said in your testimony that 
there are 34 countries who are with us. What degree are they 
with us and who are they specifically?
    Secretary Kerry. I don't have the full list of them here, 
but I have listed a bunch of them. The Arab League countries 
have condemned this. A number of them have asked to be part of 
a military operation. The Turks, a NATO country, have condemned 
it, pinned it on Assad, asked to be part of an operation. The 
French have volunteered to be part of an operation. There are 
others who have volunteered. But, frankly, and I will let 
General, you know, Dempsey speak to this, we got more 
volunteers than we can use for this kind of an operation.
    Now, in the next days those names, as they choose to, as 
this evidence comes out, will be made more public. But as I 
said to you, we have 53 countries have already condemned the 
use publicly, 37 have said so publicly. And there are I think 
it is a total of 34 countries or organizations have indicated 
that they are prepared to take action. Now, that is growing. 
There are more countries reviewing the evidence that we have 
shown. And as I said, over this time the President has 
purposefully taken to come to Congress he has asked me and the 
State Department to reach out to more countries and to build 
the kind of international support that this merits, and we will 
do so.
    Mr. Salmon. Thank you. I would really appreciate it if we 
could get a list of the countries and what assets they are 
willing to commit.
    Secretary Kerry. Delighted. We have it all broken down.
    Mr. Salmon. Not now. We can get that later. I do have a 
question for General Dempsey.
    General Dempsey, what are our goals in a military strike? 
The President said that the military attack would be limited in 
duration and scope and degrade the Assad regime's capacity to 
carry out future attacks on its own people. Do you believe that 
the use of surgical strikes will achieve the President's stated 
goal? And can you guarantee the American people that the Assad 
regime will be unable to launch any further chemical warfare 
attacks both at home or against their neighbors after the U.S. 
mission is complete? And in addition, do you believe that the 
region will be more stable after a U.S. attack or less stable?
    General Dempsey. The mission given to me was to prepare 
options to attack to deter and degrade, and that would mean 
targets directly linked to the control of chemical weapons, but 
without exposing those chemical weapons to a loss of security. 
Secondly, the means of delivery. And third, those things that 
the regime uses, for example air defense, long-range missiles 
and rockets, in order to protect those chemical weapons or in 
some cases deliver them. So that target package is still being 
refined as I sit here with you.
    As far as whether it will be effective, given the limited 
objectives I have received, the answer is yes, I believe we can 
make the military strike effective. In terms of what it will do 
to the region, that clearly will depend on the reaction of the 
Assad regime. But as I mentioned earlier, our partners and the 
United States military is postured to deter his retaliation.
    Mr. Salmon. Finally, General Dempsey, as we have been 
discussing this over the last few weeks we have given pretty 
clear--we telegraphed our message to Assad and his regime that 
we are planning to make an attack. Do you not assume that they 
might circle those wagons with civilians and that the 
possibility of civilian casualties could be very great?
    General Dempsey. Well, the targeting requirements actually, 
as given to me by the President, require us to achieve a 
collateral damage estimate of low. And though they are in fact 
moving resources around, and in some cases placing prisoners 
and others in places that they believe we might target, at this 
point our intelligence is keeping up with that movement.
    Chairman Royce. Karen Bass of California.
    Ms. Bass. Thank you. Thank you, chairman and ranking 
member, for holding this hearing today, and also for our 
witnesses for coming. I have three questions. I would like to 
get out all three questions, and then ask whoever chooses to 
respond.
    The first one, as I recall in Libya, the Arab League asked 
us to intervene. And if I am wrong, you know, correct me. But I 
wanted to know what was different this time. I know they have 
condemned the attacks, but why haven't they asked us to 
intervene?
    And then second, what type of retaliation, if any, do you 
expect from Syria, from Iran, Hezbollah, or other affiliated 
parties if we move ahead with this strike? And what are we 
doing to prepare for any possible retaliation?
    And then finally, as I understand, Putin made some comments 
today that he might be open to the idea of responding if it 
could be proven where the chemical weapons came from. And I was 
wondering if you thought that this provided an opportunity, 
one, how you might interpret his comments, but also is there 
still an opportunity for the international community to come 
together through multilateral bodies like the U.N. or NATO?
    Those are my questions to whichever one of you chooses to 
answer them.
    General Dempsey. Well, I learned in the military long ago 
never to volunteer, but I have just been tasked. I will answer 
the one that actually most applies to my particular expertise, 
and that is what kind of risk of retaliation. You know, there 
is both conventional risks. That would be if he chose to use 
some of his long-range rockets to attack his neighbors or some 
of our facilities. There is also asymmetric. You know, he could 
encourage some of the surrogates and proxies such as Lebanese 
Hezbollah to attack an Embassy. There are actions he could 
probably seek to achieve in cyber. And we are alert to all of 
the possibilities, and our mitigating strategy is in the way we 
have positioned ourselves in the region.
    Ms. Bass. Thank you.
    I asked about the Arab League, and then the other one was 
about Putin.
    Secretary Kerry. And the Arab League question?
    Ms. Bass. The Arab League question was, as I recall during 
Libya, I believe that the Arab League asked us to intervene. 
And I wanted to know what the difference was with Syria. So 
they have condemned the attack, but they have not asked us to 
intervene, and why?
    Secretary Kerry. The reason is that a couple of their 
members, a number of their members, three or four of them, are 
not in favor of it, so they didn't--they did a consensus 
statement. But individual countries are prepared to and are in 
favor of it, and I have named a number of them. But Lebanon, 
for obvious reasons, has some problems. Algeria, Iraq have some 
issues. Iraq for obvious reasons. So you can understand why 
people might be a little restrained.
    Let me just share, because this has been a recurring theme 
here today, Australia, Foreign Minister Carr said that 
Australia supports the U.S. position on Syria and its right to 
take actions to enforce vital international norms. And he noted 
that Australia believes the United States has this right 
independent of any endorsement by the U.N. Security Council. 
Albania. The Albanian Ministry said, we are ready to 
politically support the U.S. and NATO in any action needed to 
be undertaken to put an end to the massacre of Syrian 
population and to support the Syrian opposition in building a 
free and democratic Syria. Bosnia-Herzegovina.
    Ms. Bass. Before I run out of time, could you respond about 
Putin, you know, how you interpret what his comments were 
today?
    Secretary Kerry. I would interpret his comments today as 
hopeful that perhaps at the G-20 he and the President will have 
a good conversation and there may be a road forward where 
Russia would consider not blocking action. But I would just 
quickly say to everybody here, Canada, Stephen Harper has said 
we should take action. Denmark, France, Poland, Turkey, all 
have suggested the United States should take action, they would 
be prepared to take action with us, and so forth. This is a 
building response, and I think other countries understand the 
moment.
    Ms. Bass. Thank you.
    Chairman Royce. We are going to go now to Mr. Tom Marino of 
Pennsylvania.
    Mr. Marino. Thank you, Chairman.
    Secretary Hagel, if you could tell me or tell us, who are 
the bad guys? Or maybe put it this way, who are our allies? Who 
are the good guys over there in Syria?
    Secretary Hagel. You are referring to the opposition, I 
assume?
    Mr. Marino. But who are they?
    Secretary Hagel. Well, we have covered some of this ground. 
But again, you are looking at various groups that are part of 
the opposition. As Secretary Kerry noted, under General Idris 
there are groups who in fact have one motive and one objective, 
and that is a free and inclusive Syria.
    Mr. Marino. Do you implicitly trust these people?
    Secretary Hagel. Well, that is not my business to trust 
anybody.
    Mr. Marino. Well, certainly it has to be the business 
because you are making decisions to go into war and put 
American lives at risk. So it is a simple concept. You either 
trust or do not trust. And if you do not trust, we don't call 
these people our allies or support them.
    Secretary Hagel. Congressman, every nation, every 
individual, every group responds in their own self-interests. 
We are not unaware of all the different groups' self-interest.
    Mr. Marino. I think we are----
    Secretary Hagel. Our allies and friends----
    Mr. Marino. Excuse me, sir. With all due respect, I think 
we are aware, if we look back what happened in Libya, if we 
look what happened in the Middle East in the past, if we look 
at the Muslim Brotherhood, if we look at al-Qaeda, we have to 
take this into consideration. But obviously we do not know yet 
who the good guys are.
    Secretary Kerry. Congressman----
    Secretary Hagel. Congressman, let me respond to that.
    Mr. Marino. Okay. Would you do it quickly, please?
    Secretary Hagel. The focus is not on good guys and bad 
guys, the focus is on a narrowly drafted resolution asking 
authorization from the Congress regarding chemical weapons.
    Mr. Marino. I wouldn't think good guys would be using the 
gas. I wouldn't think the good guys would be using the gas.
    And, Secretary Kerry, if I may ask you, for argument's 
sake, as one prosecutor to another, I believe you are beyond a 
reasonable doubt assertion. I truly believe that. But this will 
not stop the butchering and the killing that takes place over 
there. So what is the purpose? What is the end game here? Where 
is the imminent danger to the United States?
    Secretary Kerry. Congressman, you are absolutely correct 
that it will not stop the butchery. I wish it would. But what 
it will do is what it is intended to do. It is intended to 
assert the principle, which has been in place since 1925, that 
no one should use chemical weapons under any circumstances.
    Mr. Marino. Sir, I understand that. I understand that.
    Secretary Kerry. All right. That is what this----
    Mr. Marino. But what is the reality of this? What is the 
reality of this?
    Secretary Kerry. I am trying to tell you.
    Mr. Marino. We have seen this used in the past. You made 
the comment in 2002, when Bush wanted to go into Iraq, which I 
didn't agree with, and the President also made the statements 
when he, I think, was in the senate in the State, but at least 
was advancing his career, that we should not do this even 
though Saddam Hussein gassed his own people, the Kurds. Now 
what is the difference now, today, that you and the President 
are so intent on going into Syria because Assad has done this?
    Secretary Kerry. Well, the gassing was not the pretext for 
that operation. But ultimately Saddam Hussein was held 
accountable for not just that crime, but all of his other 
crimes. And he hung. So the bottom line is he was held 
accountable.
    Mr. Marino. In hindsight, I can see in hindsight you 
stating that. But you weren't supporting that in 2002 like you 
are supporting it now. And I don't see the difference. My issue 
really gets to this. Who is going to pay for this? And what is 
it going to cost the United States taxpayers?
    Secretary Kerry. Let me let Secretary Hagel address the 
cost issue for the military.
    Mr. Marino. Please. Please.
    Secretary Hagel. Congressman, we have looked at the 
different costs depending on the different options, depending 
on the decision the President makes. We have given some ranges 
of this. It would be in the tens of millions of dollars, that 
kind of range.
    Mr. Marino. That answered my question. And I see my time is 
running out here. But believe this: Regardless of the 
minimization of intervention, an American military personnel 
will die. This I cannot accept. Soldiers coming home deformed 
and limbless and even in a body bag is not acceptable to me, 
and therefore I cannot and will not vote for this intervention 
in Syria. Thank you.
    Secretary Hagel. Well, this specifically notes that no 
boots would be on the ground, this resolution that is being 
drafted, I might remind the Congressman.
    Mr. Marino. I have heard that before.
    Chairman Royce. We will go down to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I want to thank all three of you gentlemen for your service 
to our country. And I want to thank all of you for sharing the 
information that you have thus far with Congress and the 
American public, as well as the world. And I think clearly that 
anyone looking at this evenly, that it has been a success in 
making clear the case there were chemical weapons used and the 
Assad government indeed used them. And I want to congratulate 
you and the President on those efforts.
    So General Dempsey doesn't run out of time and has a few 
seconds to answer, we were going down a road that I just wanted 
to pursue, if I could. General, you raised concerns in the past 
about engaging militarily in the Syrian conflict. And 
obviously, you are here today to support a limited military 
action. But, you know, you did say, started to say in your 
remarks, there are military outcomes in supporting the 
opposition. But you qualified it saying that is not what we are 
doing here. But I am concerned that regardless of our stated 
intent in this area, others won't share that same view that it 
is not our intent.
    So if you could, I am giving you plenty of time I hope, can 
you just expand upon what your concerns were, and maybe are, 
that you had in the past that you stated so we have a better 
understanding of what they are? And I am giving you enough 
time, too, to see what your views might be on how we can 
mitigate that or navigate around those concerns in the 
situation we are right now.
    General Dempsey. Yeah. I want to separate support for the 
opposition from acting in a limited, focused way to deter and 
degrade the Assad regime from using chemical weapons. Because 
the former, the support for the opposition, does come with some 
risk of the slippery slope of not entirely understanding when 
that support ends and how much it has to grow over time, which 
is why I am mostly supportive of helping the opposition by 
their development, by their training and equipping, not by 
becoming their military arm. Okay.
    Now, separate that from what we are here for today. In my 
view, militarily, the fact that the Assad regime has increased 
its use of chemicals over time to the point where initially it 
was a weapon intended to terrorize a small portion of a 
particular neighborhood, to send a message to the opposition, 
to where now in the most recent case it was used to literally 
attempt to clear a neighborhood, they have reached the point 
now where Assad is using chemical weapons as just another 
military tool in his arsenal. That runs great risk for Syria, 
it runs risk in the region, it runs risk in the globe.
    And I am able to, with some integrity, with a lot of 
integrity I hope, be able to come here before you today and 
make that distinction, that we should do something in our 
national interest based on the use of chemical weapons without 
committing to supporting the opposition to overthrow the 
regime.
    Mr. Keating. Was part of that slippery slope, General, was 
that part partly a concern about how other countries or how 
other factions could be taking our actions? Because even in a 
limited sense, we are helping the opposition because we are 
attacking the Assad government. So I mean in that respect was 
that any concern that you had prior to that and how do you 
mitigate that now?
    General Dempsey. Well, we have always considered not only 
what effect our actions would have on our partners in the 
region, the Turks, the Jordanians, the Israelis, and even the 
Iraqis for that matter, with what in fact it would have 
potentially on our potential adversaries. And so, yeah, of 
course that has always been a concern, a concern and a 
consideration. But when something reaches the level where I 
think it has direct impact on our national security, then the 
overriding consideration is not what others think but what we 
think.
    Mr. Keating. Thank you, General. Very quickly, I am ranking 
member on Europe, and Eurasia, and Emerging Threats there. 
NATO, there was a precedent set in 1999 where NATO did move 
without U.N. Security Council approval. Do you think there is 
hope for them moving not just individually as countries? Have 
you exhausted everything in terms of trying to get NATO support 
as an organization? I will ask either Secretary that question.
    Secretary Kerry. I apologize, I was just reading a note 
from them. Could you repeat that?
    Mr. Keating. It was about NATO, the 1999 precedent, where 
they moved forward without that Security Council approval. Is 
there any hope in doing that organizationally going forward?
    Secretary Kerry. I doubt it, but I can't tell you until I 
have the meeting that we are slated to have this weekend. I 
will get a better sense of that.
    I would say to Congressman Marino with respect to the body 
bags and the specter that he drew, we had I think it was about 
a 28-day campaign, maybe 30-day campaign in Kosovo, Bosnia. 
There were over 30,000 sorties of our aircraft and so forth, 
none of which is contemplated here, none of which. And there 
were zero casualties. Zero.
    Chairman Royce. We should go to Jeff Duncan of South 
Carolina at this time. Thank you, Mr. Secretary.
    Mr. Duncan. Well, thank you Mr. Chairman.
    You know, I can't discuss the possibility of U.S. 
involvement in Syria's civil war without also talking about 
Benghazi. The administration has a serious credibility issue 
with the American people due to the unanswered questions 
surrounding the terrorist attack in Benghazi almost a year ago. 
When you factor in the IRS targeting of conservative groups, 
the AP and James Rosen issues, Fast and Furious, and NSA spying 
programs, the bottom line is that there is the need for 
accountability and trust building from the administration. To 
paraphrase Friedrich Nietzsche, he said I am not upset over you 
not telling me the truth, I am upset because from now on I 
can't believe you. The administration has a credibility issue.
    In my opinion, Secretaries Kerry and Hagel, Benghazi is 
germane to the discussions in Syria because, as you stated, Mr. 
Secretary, the world was and is watching for our response. But 
after almost a year of not bringing anyone to justice in 
Benghazi, they are watching our response. Mr. Kerry, your 
predecessor asked, what difference does it make now? Well, this 
is the difference, Mr. Secretary. These issues call into 
question the accountability of this administration, its 
commitment to the personnel on the ground, and the judgment 
that it uses when making these determinations. The American 
people deserve answers before we move forward talking about 
military involvement in Syria. Section IV of your testimony 
today said this is about accountability. Sure it is. The 
American people deserve answers about Benghazi before we move 
forward with military involvement in Syria's civil war.
    This is a picture. You might not be able to see it from 
there, you might be able to see it on the screen, but this is 
the picture of Tyrone Woods given to me by his father, Charles 
Woods, a Navy SEAL. The Woods family deserves answers. He was 
killed in Benghazi. America deserves answers before we send 
another man or woman the caliber of Ty Woods into harm's way, 
especially in another country's civil war, especially when 
there is no clear indication that there is an imminent threat 
to the United States.
    I don't question that chemical weapons were used in Syria. 
I have looked at the classified briefings. I do ask that, if 
so, where are the other signatory countries of the Chemical 
Weapons Convention as the U.S. beats the drums of war against 
this regime in Syria?
    I have spoken to hundreds of constituents. This represents 
about 300 emails that my office has gotten. And not a one, not 
a one member in my district in South Carolina or the emails of 
people that have contacted my office say go to Syria and fight 
this regime. To a letter they say, no, do not go into Syria, 
don't get involved in their civil war. I spoke to eighth 
graders, about 150 eighth graders yesterday. They get it. They 
get it that we shouldn't be drug into someone else's civil war 
where there are no good guys. There are no good guys to get 
behind here. And I can only envision an escalation of this 
current conflict.
    The same administration that was seemingly so quick to 
involve the U.S. in Syria now was reluctant to use the same 
resources at its disposal to attempt to rescue the four brave 
Americans that fought for their lives in Benghazi.
    Mr. Kerry, you have never been one that has advocated for 
anything other than caution when involving U.S. forces in past 
conflicts. The same is true for the President and the Vice 
President. Is the power of the executive branch so intoxicating 
that you would abandon past caution in favor for pulling the 
trigger on a military response so quickly?
    The reason that I say Benghazi is germane to our 
discussions on Syria is this. Secretary Kerry, have there been 
any efforts on the part of the United States, directly or 
indirectly, to provide weapons to the Syrian rebels? And that 
would also include facilitating the transfer of weapons from 
Libyan rebels to the Syrian rebels.
    Secretary Kerry. Have there been efforts to?
    Mr. Duncan. To put weapons in the hands of Syrian rebels 
and also transfer weapons from Libya to Syria.
    Secretary Kerry. Well, let me begin, Congressman, by 
challenging your proposition that I have never done anything 
except advocate caution, because I volunteered to fight for my 
country. And that wasn't a cautious thing to do when I did it. 
Secondly, when I was in the Senate----
    Mr. Duncan. Mr. Secretary, with all due respect, my time--
--
    Secretary Kerry. I am going to finish, Congressman. I am 
going to finish. When I was in the United States Senate I 
supported military action in any number of occasions, including 
Grenada, Panama, I can run a list of them. And I am not going 
to sit here and be told by you that I don't have a sense of 
what the judgment is with respect to this. We are talking about 
people being killed by gas and you want to go talk about 
Benghazi and Fast and Furious.
    Mr. Duncan. Absolutely I want to talk about Benghazi 
because four Americans lost their lives. I have sympathy for 
the people in Syria, and I do think there should be a worldwide 
response. But we should act cautiously.
    Secretary Kerry. Congressman, we are acting cautiously. We 
are acting so cautiously that the President of the United 
States was accused of not acting because he wanted to have 
sufficient evidence and he wanted to build the case properly.
    Mr. Marino. It has been 15 days.
    Chairman Royce. We go now to----
    Secretary Kerry. Congressman, Congressman. Let me finish.
    Mr. Chairman, point of privilege here. This is important. I 
think this is important. I think it is important whether or not 
we are going into Syria in a way that the Congressman 
describes, which I think most people in America don't want us 
to do. We don't want to do that. That is why the President has 
said no boots on the ground. This is not about getting into 
Syria's civil war. This is about enforcing the principle that 
people shouldn't be allowed to gas their citizens with 
impunity. And if we don't vote to do this Assad will interpret 
from you that he is free to go and do this any day he wants to. 
That is what this is about, not getting involved in Syria's 
civil war.
    So let's draw the proper distinction here, Congressman. We 
don't deserve to drag this into yet another Benghazi discussion 
when the real issue here is whether or not the Congress is 
going to stand up for international norms with respect to 
dictators that have only been broken twice until Assad--Hitler 
and Saddam Hussein. And if we give license to somebody to 
continue that, shame on us.
    Chairman Royce. We will go now to Mr. David Cicilline of 
Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
the ranking member for convening this hearing. And I want to 
begin by thanking our three witnesses not only for being here 
today, but for your extraordinary service to our country.
    I want to acknowledge and thank the President for his 
consultation. I have had the opportunity to participate in a 
classified briefing on Sunday, review some documents, a 
briefing on the telephone on Monday with Secretaries Kerry, 
Hagel, Jim Clapper, and others, Ambassador Rice. I really thank 
the President for this ongoing consultation and sharing of 
information.
    This is, I think, a very difficult question. And there are, 
as Secretary Hagel said, no good answers. The use of chemical 
weapons was horrific. I think there is ample evidence that the 
Assad regime is responsible for that and should be held 
accountable. And my question really is, as I talk to 
constituents in my district who react the same way, this war 
weariness and a recognition of all of the enormous risks 
associated with military intervention, both in propping up the 
wrong opposition and loss of life and being deeply engaged in a 
civil war and the spiraling of that, they all wonder is there a 
set of actions we could take which would evidence strong 
condemnation, isolate Assad, and also vindicate our deep 
commitment to a set of international institutions and 
organizations? So things like making China and Russia act in 
the Security Council on a public stage to veto a resolution. 
Attempt to seek an indictment of Assad for war crimes. Isolate 
Syria in ways through sanctions and other kinds of 
international actions where we might build a broad coalition, 
strongly condemn the use of chemical weapons, isolate Syria, 
and help build the sort of international voice, and do it in a 
way, frankly, that would be more consistent with our values, 
with the idea of working together with other nations and using 
international organizations.
    So I would like to know was there a discussion about a set 
of such options that might be effective without the risks that 
are associated with military action? Were they considered and 
rejected? Or is it something we could put together that would 
be a strong, forceful statement and set of actions that would 
hurt Assad, deter the likely use of chemical weapons again, but 
without any of the dangers?
    And then second question quickly is, Mr. Secretary, 
Secretary Kerry, you mentioned that America and her allies have 
ample ways to make Assad regret that decision without going to 
war. I think we would love to hear more about what those things 
are because I think one of our concerns or many concerns is 
what happens after a military attack.
    But I am really interested in that first question from all 
of you as to whether or not we might think hard about other 
ways to do this that will invite the kind of condemnation that 
is appropriate.
    Secretary Kerry. Congressman, a very good question. Let me 
just say to you that we wish, believe me, we wish that the 
international institution that is there for this kind of 
response was able to respond, and that is the U.N. and the U.N. 
Security Council. As recently as a few weeks ago, when this 
event took place, our representatives at the U.N. attempted, 
along with other allies, to put a resolution in front of the 
Security Council that would have simply condemned the event, 
not assigning any blame at all, just condemned the use of 
action, and the Russians said no. They blocked it. So that is 
what has set us into this path of believing that we have to act 
in a way that has an effect at deterring Assad from the use of 
these weapons.
    Now, even if the U.N. did pass something, even if you had 
some sanction, if it isn't meaningful in a way that is going to 
deter the action, and no one has yet contrived of some, you 
know, piece of paper or terminology that is going to change 
this man's calculation with respect to what he is fighting for. 
So I think the judgment has been made that the only way to have 
an impact, the only way you are going to hold him accountable 
now is to make it clear to him that this will in fact detract 
from his ability to abuse his people and to use force to stay 
in power.
    Mr. Cicilline. I know Secretary Hagel has----
    Secretary Hagel. Well, I think what the Secretary said is 
exactly right. I would add two things. There are a number of 
tracks that we are on right now to accomplish what you are 
talking about. Secretary Kerry's diplomatic track, which has 
been ongoing and intense. Our reaching out to our allies all 
over the world. I was in Asia last week with 15 defense 
ministers from all over Asia-Pacific, discussing this, meeting 
with leaders of countries in those areas. Our NATO allies. All 
three of us have been talking to our counterparts from 
countries all over the world. What the White House is doing. 
What the President is doing. So working through institutions. 
We are still involved with the United Nations. So those tracks 
are being run in addition to what we are talking about here.
    One exact point on the purpose of this hearing. General 
Dempsey said this morning at the Senate Armed Services 
Committee, when asked about the violation of the chemical 
weapons norm, a 100-year-old norm, well, is it that important? 
Is it that big a deal? One of the points that General Dempsey 
made, which is exactly right, and we start here, this is a 
threat to our interests, to our forces, to our country, 
allowing a tyrant to continue to get away with the use of 
chemical weapons, that is a real threat against us.
    Chairman Royce. Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, gentlemen, thank you. I know you have had a couple of 
very long weeks. I am about to support this, but I do want to 
say at the very beginning my disapproval of the President's 
policies in the Middle East. And I believe that part of the 
reason we are having difficulty rallying an international 
coalition is because they don't see the United States having 
led on this until recently.
    But that said, as a veteran of the military, as a current-
serving military pilot in the Air National Guard, I also am war 
weary, as many Americans are war weary. But I want to remind 
Americans what one of my favorite Presidents, Ronald Reagan, 
said, if we want to avoid war. He said war begins when 
governments believe that the price of aggression is cheap. And 
I think that is a situation we find ourselves in, in Syria now. 
In fact, in listening to some of my colleagues, it has been 
amazing to me that we are seeming to paralyze ourselves into 
inaction, running through every potential scenario that could 
occur in this. And it makes me wonder, God help us if we become 
a country that can't do the right thing because we paralyze 
ourselves to inaction.
    What I have got here is a picture that I think everybody 
needs to see. This is a picture of Syrian children, many of 
which, the Secretary said earlier, about 400-some died in at 
least just this one chemical gas attack. And if we don't do 
anything about this, you can ensure that maybe even the kids in 
this picture, or definitely other kids, will die from the same 
attack.
    I want to very quickly read to you the effects of sarin 
gas, and I want you to look at these children and understand 
that children have gone through this. The mild effects of sarin 
exposure is runny nose, watery, burning eyes, small pupils, eye 
pain, blurred vision, drooling and excessive sweating, cough, 
chest tightness, rapid breathing, diarrhea, nausea, vomiting, 
abdominal pain, increased urination, confusion, drowsiness, 
weakness, headache, slow or fast heart rate, low or high blood 
pressure. Exposure to large doses of sarin, like we saw in 
Syria, loss of consciousness, convulsions, paralysis, 
respiratory failure, which is a polite way of saying you 
suffocate to death while you are aware that you are suffocating 
to death.
    What we are talking about is a discussion of what the 
international community and the United States of America in the 
goodness of our heart has determined is the right thing in an 
area that we can affect. Can we ban all artillery shells? We 
can't. Can we ban all war? We can't. But if we can stand up and 
say that chemical weapons have no place in this world and we 
can do something about it, God help us if we don't.
    And I would remind folks, and I will ask you all to comment 
on this eventually, from 1991 to 2002 or 2003, we maintained 
two no-fly zones over Iraq under bipartisan administrations 
because of our disdain for chemical weapons. And most people 
would have agreed that what we did over northern and southern 
Iraq was the right thing to do because Saddam Hussein gassed 
his own residents.
    This is not the first time America has put down a red line 
on chemical weapons. I have heard people say that this is the 
President's red line, it is not the red line of the United 
States of America, and you just have to look at history and 
know that it is. And I am also reminded of what President 
Clinton said when he was asked what his one regret was for his 
time in presidency. He said, my one regret was inaction in 
Rwanda. And I wonder, in 20, 10, 50 years what are we going to 
say if we did nothing about the gassing of thousands of people 
in Syria.
    Now, I just have a couple of questions. I have heard some 
people say, and it has really bothered me, they say that if we 
go in and we strike Assad and make him pay for the use of 
chemical weapons, more than any benefit he gains, that we are 
acting as<greek-l>, quote deg. ``al-Qaeda's Air Force.'' And I 
believe that is a cheap line by some people to garner headlines 
and not a serious discussion of what is going on in Syria. So, 
Mr. Secretary Kerry, if you will start, what is your thought on 
the comment of the cheap line of al-Qaeda's Air Force in 
dealing with the opposition and in punishing an evil man for 
using evil weapons?
    Secretary Kerry. Well, Congressman, your comments have been 
very eloquent and I think very, very important to this 
discussion. And I am confident I join the General and Secretary 
Hagel in thanking you for your service, willing to serve both 
in the Guard as well as a pilot but also here.
    The intent of the President could not be more clear. And 
the impact if we effect, if Congress will pass this and we can 
carry out this action, the impact will be not to help al-Qaeda. 
In fact, it won't help al-Qaeda. It will further expose al-
Qaeda. But it will hold a dictator accountable to this critical 
standard. You just reiterated it, and I said it in my opening 
testimony, this is not just about folks in Syria, my friends. 
American troops benefit from this standard being upheld. And 
through all of our wars since 1925 we have managed to see it 
upheld against when we have been involved.
    And the fact is that the absence of our willingness to 
uphold this standard will do several things that are directly 
against our interests. Number one, completely undermine 
America's validity, America's credibility, America's word in 
the region and elsewhere. It will embolden North Korea and 
embolden Iran with respect to activities that will directly 
threaten the United States and our allies. It will importantly 
increase the number of terrorists that we are already concerned 
about because it will force people who want to take on Assad to 
go to the least common denominator of efficiency and 
expediency, and that will be to arm the worst people who will 
try to get the job done.
    And so I would just urge everybody to listen carefully to 
Congressman Kinzinger, but to really evaluate this just on a 
fundamental basis of common sense and human behavior. In the 
absence of doing this, there will be a grant of impunity to 
Bashar al-Assad for the use of these weapons.
    Chairman Royce. Alan Grayson from Florida.
    Mr. Grayson. Thank you.
    General Dempsey, do Syria and Hezbollah have the means to 
launch a counterattack against U.S. vessels in the 
Mediterranean, the U.S. Embassy in Beirut, and Israel?
    General Dempsey. Our maritime assets are positioned such 
that there are no capabilities that can threaten them. 
Embassies of course are a fixed resource and are always subject 
to terrorist attack. That remains true today as it has for the 
last 10 years. And we have taken steps to mitigate that risk.
    Mr. Grayson. And Israel?
    General Dempsey. Israel, you may be aware, is actually 
anticipating some action, gone to a state of high alert, called 
reserves up, taken a lot of measures. And by the way, we 
partner with Israel very closely on the defense of Israel.
    Mr. Grayson. Would you say that a counterattack is more 
likely than not?
    General Dempsey. No, I don't think I can say that. But, you 
know, without signaling the Syrian regime in some way, I 
wouldn't say that. I wouldn't come to that conclusion.
    Mr. Grayson. Secretary Kerry, have members of the Syrian 
opposition called for such an attack? And if so, whom?
    Secretary Kerry. Not specifically that I know of. They 
support it apparently, but they have not advocated to me. I 
have had conversations with the president of the opposition and 
there was no pleading or urging to do this.
    Mr. Grayson. In fact, haven't members of the Syrian 
opposition said they don't want an attack? Isn't that true?
    Secretary Kerry. No, I have not heard that.
    Mr. Grayson. You haven't seen the public reports to that 
effect?
    Secretary Kerry. No.
    Mr. Grayson. All right. Secretary Kerry, there are 189 
signers of the Chemical Weapons Convention. Syria does not 
happen to be one of them. How many of those signatories have 
pledged to participate in the military intervention in Syria? 
And what exactly has each one pledged to do?
    Secretary Kerry. There are at least 10 countries that have 
pledged to participate. We have actually not sought more for 
participation. We have sought people for support. And there are 
many more, obviously, that support. But I think I should let 
the General speak to the question. You know, I said earlier 
there really is a limit, for this kind of an operation, as to 
how many you want to participate. You want support. But just 
physically, the management of it, the technical capacity and 
other issues are critical.
    And, General, perhaps you want to say something.
    General Dempsey. Actually, Congressman, I apologize, I was 
writing down your first question. What was the question about 
partners?
    Mr. Grayson. Of the 189 signatories to the Chemical Weapons 
Convention how many of them have pledged to participate in a 
military attack on Syria and what have they pledged to do?
    General Dempsey. Well, I don't have the final answer to 
that question. Commander USCENTCOM is actually militarily 
conducting most of the outreach. And we have, you know, we have 
agreement to assist in many different ways, some of which 
wouldn't be appropriate to speak about in an unclassified 
setting.
    Mr. Grayson. Secretary Hagel, will the military action in 
Syria, if it does take place, require a supplemental 
appropriation? And if you think not, then will you commit to 
that now?
    Secretary Hagel. Well, it depends on the option that the 
President would select. I have said that we will work with the 
Congress on whatever the cost of that is. Thank you.
    Mr. Grayson. Secretary Hagel, there has been a report in 
the media that the administration has mischaracterized post-
attack Syrian military communications and that these 
communications actually expressed surprise about the attack. 
This is a very serious charge. Can you please release the 
original transcripts so that the American people can make their 
own judgment about that important issue?
    Secretary Hagel. What transcripts are you referring to?
    Mr. Grayson. The transcripts that are reported that took 
place after the attack in which the government has suggested 
that they confirmed the existence of an attack, but actually it 
has been reported that Syrian commanders expressed surprise 
about the attack having taken place, not confirmed it.
    Secretary Hagel. Well, that is probably classified, 
Congressman. I would have to go back and review exactly what 
you are referring to.
    Mr. Grayson. Well, you will agree that it is important that 
the administration not mislead the public in any way about 
these reports, won't you?
    Secretary Hagel. Well, of course. But I am not aware of the 
administration misleading the American public on this issue or 
any other issue.
    Mr. Grayson. Will you agree that the only way to put that 
matter to rest is to release the original reports in some 
redacted form?
    Secretary Hagel. Well, I am not going to agree to anything 
until I see it, until I understand better what it is. But most 
likely it is classified.
    Mr. Grayson. I understand that. I am asking will you 
declassify it for this purpose?
    Secretary Hagel. I just gave you my answer. I have no idea 
what exactly you are talking about. I would have to go back and 
look at it. I would have to confer with others, our 
Intelligence Community. That is all I can tell you now. Thank 
you.
    Chairman Royce. Tom Cotton of Arkansas.
    Mr. Cotton. Thank you, Mr. Chairman.
    Mr. Kerry, Mr. Hagel, General Dempsey, thank you for your 
time and service, most importantly, in uniform, Mr. Kerry, Mr. 
Hagel as young men, General Dempsey as a young man and now as a 
more seasoned man as well.
    I have grown weary for several months, not weary of war, 
because I know, as each of you know, that war is sometimes the 
price that a free society must pay to defend our freedom and to 
protect our interests abroad. I have grown weary of the 
President's war weariness. I have called for months for action 
in Syria. I feel that action should have been taken years ago. 
I am deeply worried that our core national security interests 
are at stake in Syria.
    Mr. Kerry, you said that the President does not bluff. I 
fear that both our enemies and our allies do not believe that 
statement. For some time now we have let Iran violate numerous 
United Nations resolutions. In Syria, we have not acted 
previously on uses of chemical weapons. And I do believe the 
world is watching. And the day the United States does not act 
is not just a day that Bashar al-Assad knows it is open season 
for chemical weapons, but also the day Kim Jong Un knows that, 
and most ominously, the day that Iran's Supreme Leader, 
Ayatollah Khamenei, spins his centrifuges into overdrive, which 
starts the clock ticking to the less than 2-year moment when 
those nuclear warheads on intercontinental missiles could hit 
our constituents here in the United States.
    I agree with what my colleague Adam Kinzinger has said, 
that we have a vital interest in maintaining the international 
taboo against chemical weapons. All of you, like me, have been 
in training, I suspect, where you have been exposed to gas, and 
you know that no one benefits from that taboo more than do 
American troops. And I am also deeply worried that our inaction 
is destabilizing the Middle East, in particular our allies in 
Israel and Jordan, as well as Turkey, and emboldening Iran, one 
of our most implacable enemies, as they send thousands of 
troops to fight in Syria, along with Hezbollah, its terrorist 
proxy from Lebanon.
    So that is why, miracle of miracles, I am in support of the 
President's call for action in Syria. I am urging my 
colleagues, on both sides of the aisle, to support this action 
as well. However, the President's stated policy was not just a 
red line against chemical weapons, which, as Mr. Sherman said, 
occurred without any objection from Members of Congress, and 
occurred before he was reelected by the American people, it was 
also a stated policy of regime change.
    So I would like to ask you, what is the President planning 
that could lead not just to punishment for this use of chemical 
weapons, but also an ultimate victory in Syria, which is a 
change in the nature of the regime so they will not use 
chemical weapons again and so that a pro-Western, moderate, 
native Syrian Government can take its place?
    Secretary Kerry. Well, Congressman, thank you for a very 
clear and compelling statement, and thank you for the support 
for the President's initiative for the interests of the 
country.
    With respect to the longer term, you are absolutely 
correct. But I want to separate here because it is very 
important in terms of what the President is asking the Congress 
for. Yes, the President's policy is that Assad must go and 
there should be a regime change. And the President is committed 
to additional efforts in support of the opposition, together 
with friends and allies in the region, in a coordinated way in 
order to achieve that, with the understanding that the ultimate 
transition will come and can come through a negotiated 
settlement, a political resolution, not a military. He doesn't 
believe--we don't believe--there is a military solution.
    But this action, because nobody should be confused, 
Americans should not be confused, and I said earlier, you know, 
this is not an effort to take over Syria's civil war, it is an 
effort to uphold this standard. And the action the President is 
asking the Congress to approve is not--is a singular military 
action to uphold that standard with respect to chemical 
weapons.
    On a separate track is the political track, which the 
President is seeking support for through appropriate channels 
here in Congress, which is in effect now, to help the 
opposition in order to ultimately see Assad leave. But we don't 
want to confuse the two and the context. Is there a downstream 
collateral benefit to what will happen in terms of the 
enforcement of the chemical weapons effort? The answer is yes, 
it will degrade his military capacity. It will for sure have 
downstream impact. But that is not the primary calculation of 
what brings us here, and nobody should confuse the two in this 
effort. What I would like to do, Congressman, is really in 
classified session we should have the discussion about the 
other things the President would like to see us do to support 
the opposition.
    Mr. Cotton. Thank you.
    Chairman Royce. Juan Vargas of California.
    Mr. Vargas. Thank you very much, Mr. Chairman.
    And thank you, Secretaries, for being here, and General. 
First of all, I would like to say before I ask an embarrassing 
question, I have the greatest respect for all of you. I think 
Secretary of State Kerry, I think I first heard of you from Dan 
Berrigan back in 1985 when I was in the Jesuits, I was at 
Jesuit House, and he had great respect for you because of your 
activities after Vietnam. And I know, Secretary Hagel, that you 
were so reluctant on going to war that you almost weren't 
approved by the Senate. In fact, I think you were the only 
Secretary ever to be filibustered. So I know you are not 
anxiously running to war. And the President of course ran on 
not getting us into war. And I am certainly someone who is very 
reluctant to get into any kind of war like this.
    On Saturday, however, I had the opportunity to speak to a 
small group of veterans in my district in San Diego before I 
flew here for the classified briefing on Sunday, and they asked 
a question, and I told them I would ask. I first told them I 
wouldn't, but then they convinced me it was a good question. 
And that is that one of them has a son in the military today, 
and he believes that last time we went running off to war that 
the facts that we were given were lies or misleading. And what 
he wanted is just one thing. And I told him that all I had 
read, and certainly now all that I have read does lead me to 
believe that chemical weapons were used, and that children were 
gassed, and because of that we do have to act. But he wanted 
you to promise that the facts that you have given us are true 
to the best of your ability, that you are not lying, that you 
are not holding anything back, that what we have seen and what 
I have read--and I have read everything that they have given to 
us, I have been back twice now to make sure that I have read 
everything--I want to make sure that you promise us that you 
are telling the truth.
    Secretary Kerry. Congressman, I am proud and perfectly 
willing to tell you that everything that I have said is the 
truth, and based on the information as it has been presented to 
me, and as I have, based on my own experience in war, which I 
resolved to do if I ever was in a position to make any choices 
in the future, fully vetted, and I am comfortable with it. And 
I wouldn't possibly make this recommendation if I weren't 
comfortable with it.
    I believe we have vetted this, we have double-checked it, 
we have asked the intel people to rescrub. We have even had a 
separate team created that had independent from the original to 
totally vet, check all the analysis, find out if it could have 
been an opposition or anything else. And in every case I would 
say for myself, and everybody that we have sat around the table 
with, there is a comfort level with this that is rare in this 
kind of situation. I wouldn't have said you could prove this 
case beyond a reasonable doubt if I didn't believe it.
    Mr. Vargas. Thank you.
    Secretary Hagel? Again, I apologize for the insulting 
question, but I think it has to be asked.
    Secretary Hagel. No, I think it is a very important 
question. We ought to ask more questions like that.
    I don't know how I would improve on my former Senate 
colleague's question and answer back to you. I feel exactly the 
same way. I know that the three of us wouldn't be sitting here 
today saying the things we are saying if we didn't absolutely 
believe it. We have all three been through too much and our 
experiences guide us. Thank you.
    Mr. Vargas. Mr. Chairman, I still have a lot of time left, 
but that was my only question. Thank you.
    Chairman Royce. Thank you.
    We are going to go now to Mr. George Holding of South 
Carolina.
    Mr. Holding. North Carolina, Mr. Chairman.
    Chairman Royce. North Carolina, of course.
    Mr. Holding. That is all right, it is all right. We still 
like South Carolina.
    General Dempsey, thank you very much for your service. I 
appreciate the fact that we have a Chairman of the Joint Chiefs 
of Staff that also has a master's degree in literature, Irish 
literature at that. The objectives of this military action that 
have been stated is, you know, to hold accountable, degrade 
ability, and deter future action, and, you know, the associated 
targeting with those objectives. Would this military action, 
militarily speaking from your perspective, constitute war?
    General Dempsey. Well, as you know, Congressman, the 
decision on whether something rises to the level of war is 
actually one that is made collaboratively between the Commander 
in Chief and the Congress of the United States. I think 
militarily it is hard--it would be hard for me to say that this 
is other than an act of war. But the problem with that 
characterization is that war has this image of being a campaign 
over an extended, protracted period of time until someone 
plants a flag or someone surrenders. And I want to make it 
clear that is not what we are talking about here. We are 
talking about something very limited to address the specific 
issue of the use of chemical weapons.
    Mr. Holding. If we take these actions, you know, trying to 
achieve the objectives that you stated and the Syrians punch 
back, you know, that escalation, you know, I am sure we can 
degrade their ability to punch back, I am sure that you have 
planned for the contingencies of them punching back, but, you 
know, there is always the chance that they can punch back and 
it can hurt. I think about the British in the Falklands, and 
they had tremendous, overpowering strength, and all of a sudden 
they found that, you know, there were some weaknesses there, 
there was a hole in defenses, and they lost a capital ship. And 
that could happen to us. If the Syrians punch back and are 
successful, would that be closer to a definition of war?
    General Dempsey. Well, I am not sure that their reaction to 
our action and our reaction to that--you know, I mean this gets 
into a cycle. And again, it is not the chairman of the Joint 
Chiefs that defines or declares war. But if you are asking me 
are we prepared for a retaliation, we are as well prepared as 
we possibly could be.
    Mr. Holding. So certainly we are prepared for any 
retaliation. And if there was retaliation, we would have to 
answer that immediately.
    General Dempsey. You know, Congressman, I wouldn't make 
that conclusion. I mean, you know, I think there is no 
automaticity to anything in conflict, at least from my 
perspective. I think, you know, I think that we would certainly 
have the ability to control our response on our terms. So I 
wouldn't conclude that this resolution starts a process that 
you or the President lose control of.
    Mr. Holding. Militarily speaking, is Russia still a 
superpower?
    General Dempsey. I think the answer to that question is 
when you look at the instruments of power--look at ourselves. 
So it is a combination of military, diplomatic, and economic 
power that defines us as a ``superpower.'' I think that Russia 
still possesses elements that would qualify them to join the 
club of superpowers. They still have an incredible strategic 
arsenal. But conventionally I wouldn't put them in that class. 
And so I think there are parts of their apparatus that rise to 
that level.
    Mr. Holding. Obviously, I mean we all know that Syria and 
Russia are close allies, and Syria is Russia's last ally in the 
Middle East. Syria has the only Russian military base outside 
of Russia. If Russia decided to strike at us in that theater 
what are the top three options that they would have to strike 
us in retaliation for us striking their closest ally?
    General Dempsey. You know, Congressman, I am going to 
suggest that it wouldn't be helpful in this setting to have a 
discussion about that kind of hypothetical. But I do have some 
views about it that I could share in a classified environment.
    Mr. Holding. But we can certainly say that Russia would 
have options to strike us in that theater in retaliation for us 
striking their ally.
    General Dempsey. Russia has capabilities that range from 
the asymmetric, including cyber, all the way up through 
strategic nuclear weapons. And again, it wouldn't be helpful in 
this setting to speculate about that.
    Mr. Holding. Yes, sir. Thank you.
    Chairman Royce. Brad Schneider of Illinois.
    Mr. Schneider. Thank you. And I want to thank you all 
again, first, of course, for the service to our country, but 
also for the time you have spent with us today, as well as 
Ambassador Ford, for the time you spent with us earlier in the 
year. This is without a doubt the biggest decision, one of the 
biggest decisions we can possibly make, and one I think we all 
take very seriously. It is why I came Sunday for the classified 
briefing. I have read the classified report. I have listened in 
on the teleconference we had on Monday, and I am grateful to 
have the time with you here.
    I also recognize the angst of my constituents of the 
country, as there is a worry and a legitimate concern. But, 
Secretary Kerry, I don't want to put words in your mouth, but 
you said, if we do nothing, the likelihood of Assad using 
chemical weapons again is, I will say, approaching 100 percent. 
Is that fair?
    Secretary Kerry. Fair.
    Mr. Schneider. And, with that, I want to turn--I am sorry--
to General Dempsey, because you said, in escalation, you can't 
get the risk of escalation down to zero. But I wonder if there 
is a risk of escalation if we do nothing.
    General Dempsey. There is absolutely a risk of escalation 
in the use of chemical weapons if we do nothing.
    Mr. Schneider. And if that approaches 100 percent, if we do 
stand down now, is there a likelihood that we are back at this 
same question again a month or 6 months from now at a higher 
level with a greater risk?
    Secretary Kerry. I believe so.
    Secretary Hagel. I think so.
    Mr. Schneider. So, I guess, as I evaluate the decision we 
have to make, you know, the first thing I wanted to see was the 
evidence. And I think, without a doubt, as you have said, 
beyond any reasonable doubt, the Assad regime has planned, 
perpetrated, and even tried to cover up this massive use of 
chemical weapons, weapons of mass destruction.
    One of my questions was a question of national interest. 
And, General Dempsey, you have said, without a doubt, for our 
soldiers who are here at home and our interests around the 
world, this is a threat to our national interests. Is that 
fair, as we go through the decision process?
    General Dempsey. It is, because of the essentially 
establishing, kind of, it is an overused phrase, but a new 
norm. And I haven't lived in a world where, militarily, 
chemical weapons were routinely used, and I don't want to live 
in that world.
    Mr. Schneider. From an international standpoint, I guess I 
come to, if we have the interest, in our national interest, the 
authority--clearly, I reviewed the Chemical Weapons Convention. 
The United Nations is the authority here. But, Secretary Kerry, 
you said the United Nations is not available to us. If it was, 
would we be on a different strategy, or is this all that is 
left to us?
    Secretary Kerry. If the Russians were to join in and be 
willing to pass this, with the Chinese, I guarantee the 
President would want to see it passed.
    Mr. Schneider. All right. Thank you.
    Secretary Kerry. But could I just also--Congressman Holding 
left a question on the table, and I want to make sure it is not 
hanging out there.
    Mr. Schneider. Please.
    Secretary Kerry. Foreign Minister Lavrov of Russia has made 
it clear, quote, I mean, pretty much quote, paraphrased, Russia 
does not intend to fight a war over Syria. And I have had 
personal conversations with President Putin and with the 
Foreign Minister that have indicated that Syria doesn't rise to 
that level of potential conflict.
    And so I just don't--you know, their ships are kind of 
staying out of the way. They are not threatening that. And I 
don't think that would be what would happen here.
    Mr. Schneider. All right. Thank you.
    So if the U.N. is not available to us, the international 
community is rising up--and I want to thank you for reaching 
out to them and bringing in the coalition. If we don't lead, is 
there anyone else who will lead to hold the Assad regime 
accountable?
    Secretary Kerry. Well, it is conceivable that the French, 
if others were to join them, might decide and others in the 
region might decide. But, you know, we are not putting that to 
the test because we don't believe that that is appropriate.
    Mr. Schneider. Okay.
    As we look forward--and Mr. Cicilline touched on this, the 
other options on the table. You have evaluated, you have seen 
where we are. This, as I said, is one of the biggest decisions 
we are going to make.
    Can you state definitively that the strategy laid out that 
you are considering will achieve the goals we have, to deter 
and diminish the ability of the Assad regime to use chemical 
weapons going forward?
    General Dempsey. Yeah, militarily, I can state that we can 
achieve the goal of deterring and degrading. Take note that I 
didn't say we can prevent. I mean, that is the challenge here. 
We are trying to change the calculus of the regime.
    Mr. Schneider. I understand. And what I believe is that for 
us to prevent would require us isolating, identifying, and 
putting boots on the ground, which I think uniformly we have 
said we stand against.
    All right. Thank you. I yield back.
    Chairman Royce. We will go to Mr. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    General Dempsey, these are for you. In your remarks that 
you submitted to this committee, there was five options you 
laid out: Advising and assisting the opposition; conducting 
limited standoff strikes; establishing a no-fly zone; 
establishing buffer zones; and, number five, control chemical 
weapons.
    Now, I have been through that and I have studied it, and I 
am going to go back through that. Training, advising, and 
assisting the opposition costs several hundred troops to 
several thousand, in your words, $500 million annually. The 
risks were that extremists would gain access to additional 
capabilities. Do you remember writing that?
    General Dempsey. I do.
    Mr. Weber. Okay. Perfect.
    You also said a risk was retaliatory attacks. You also said 
insider attacks was a risk, where those troops, the people that 
we are seeking to help, would actually wind up turning their 
guns on us and killing our troops.
    Number two, you said conduct limited standoff strikes. Your 
cost was in the billions, especially depending on the duration. 
You also said, <greek-l>quote,  deg.and I am quoting you, 
``Regime could withstand limited strikes by dispersing its 
assets.''<greek-l>, end quote. deg. It is as if we gave them a 
2-week notice. You also said retaliatory attacks were possible, 
and the probability of collateral damage would impact civilians 
and foreigners inside the country.
    Number three, you said establish a no-fly zone. Your 
estimate was it costs $500 million initially and averaging as 
much as $1 billion a month. You said there was a risk of losing 
a U.S. aircraft, which would then, ``which would require us to 
insert personnel recovery forces,'' a.k.a., boots on the 
ground. You also said, ``It may also fail to reduce the 
violence or shift the momentum because the regime relies 
overwhelmingly on surface-fired mortars, artillery, and 
missiles.'' In other words, it is not a very good option, in my 
estimation.
    Number four, you said establish buffer zones. You estimated 
that at $1 billion a month.
    And number five, you said control chemical weapons. Risks: 
Boots on the ground, American women and men; $1 billion a 
month, which I understand the Secretaries of State and Defense 
are not advocating that.
    But I have a simple question for you. Everything I read 
from your summary indicated to me that there is absolutely no 
guarantee of a lasting peace in Syria or in the region and nor 
that they are American-friendly after we have a gargantuan 
outlay of American money, resources, and maybe American blood 
and even lives if they retaliate--absolutely no guarantee. 
Would you say that is a fair statement?
    General Dempsey. I just would remind you, the answer to the 
letter that I sent to Representative Engel was related to the 
question that I received, which is, what would it take to tip 
the balance in favor of the opposition and lead to the 
overthrow of the Assad regime?
    Mr. Weber. Okay.
    General Dempsey. So I want to make sure we are separate 
from what we are doing here today.
    Mr. Weber. No, I got that. I appreciate that. I will direct 
that to Mr. Hagel.
    Would you say that is a fair statement, no guarantee of an 
outcome on the other end?
    Secretary Hagel. No guarantee of the outcome----
    Mr. Weber. Of peace in Syria, peace in the region, and that 
whoever comes out on the other side will be our friends--no 
guarantee.
    Secretary Hagel. Well, but that is not the stated objective 
of what we are talking about.
    Mr. Weber. Well, that wasn't my question, sir. My question 
was, would you guarantee that after trying to establish the 
objective that you are seeking to establish, we still do not 
have a guarantee on the other end of a stable Syria, a stable 
region, and whoever comes out on the other side would be our 
friends?
    Secretary Hagel. Well, I wouldn't guarantee anything. This 
is, as I believe the last 3 hours have been very clear about, 
this is unpredictable, it is complicated, it is dangerous. 
There are many interests that are surging through the Middle 
East, in particular Syria.
    Mr. Weber. Okay.
    Secretary Hagel. What we are thinking through 
diplomatically, militarily, international coalition, all the 
other factors that we have talked about today, are----
    Mr. Weber. Forgive me, but I am running out of time.
    Secretary Hagel [continuing]. To get to one thing, and that 
is a diplomatic settlement.
    Mr. Weber. Okay.
    Secretary Kerry, your response, please?
    Secretary Kerry. I can't give you a guarantee about the 
outcome in Syria as a whole, but I can give you a guarantee 
that the United States of America can make it clear to Assad 
that it is going to cost him to use chemical weapons and we can 
have an impact on deterring and degrading his capacity. That 
guarantee is what I can give you, and that is what the 
President is seeking to do.
    Mr. Weber. But at what price, I would add.
    In my last 15 seconds----
    Secretary Kerry. Well, not at the price that you described, 
absolutely not at the price that you described.
    Mr. Weber. Well, let me just say, if American credibility 
is at stake here, let there be no mistake: If anybody were to 
attack us, this Congress, in my view, would respond, would 
authorize the full force and fury of our very capable military.
    Secretary Kerry. But, Congressman--Mr. Chairman, this is 
important.
    But, Congressman, not everything comes down in terms of 
threat or potential future, you know, threat to our country to 
somebody attacking us. Lots of things we do we do in 
preparation and as a matter of deterrence. And we also do it in 
the context, on occasion, as we did in Bosnia, to make peace, 
to have a settlement, to save lives. That is what we achieved.
    And so we have achieved that previously, and I believe in 
the long run it is vital for the United States to assert this 
principle and to begin to move this troubled part of the world 
in a different direction. That is what we are working on.
    Chairman Royce. Mr. Bera from California.
    Mr. Bera. Thank you, Mr. Chairman.
    And thank you to the witnesses for their patience. 
Obviously, this has been a long day. It has been a long week, 
but it is of critical importance that we are having this 
discussion. I applaud the President for including Congress in 
this debate.
    I agree that we have to show resolve and we have show that 
we are committed to our allies, but my constituents and I still 
need to be convinced not that atrocities have occurred--you 
know, we all are unanimous in our condemnation of what Assad 
has done--but we need to know exactly what our goals are and 
our objectives, because this is increasingly a complex 
situation.
    And to that extent, you know, let me ask Secretary Hagel a 
question. When I was home in Sacramento County this past 
weekend, people were stopping me in the grocery stores, my 
neighbors were pulling me aside on the street. You know, I 
think all of my colleagues have been inundated with phone 
calls, emails. And almost unanimously, people don't want us to 
strike Syria. They are fatigued.
    And I answer to these people. These are the people that I 
represent. So my question, Secretary Hagel, is, what can I tell 
my constituents about why these strikes are in our national 
security interests, why these strikes matter to these folks 
that are struggling every day? How do I effectively communicate 
what our plan is?
    Secretary Hagel. I understand your question clearly, and I 
understand the responsibility you have to give those you 
represent a clear answer. So that is partly why the President 
wanted to bring this before the Congress, so the American 
people would have an opportunity to hear all the questions and 
get the answers.
    My answer to you is, for you to give to your constituents, 
is it is clearly in the interest of our country because, as we 
have noted here today, the use of chemical weapons, if it 
becomes a norm, if it becomes a standard, if it becomes an art 
of war, a method of war that is accepted by the world, which it 
is has not been for the last 100 years, it jeopardizes our 
country, our homeland, our troops, our people all over the 
world.
    When you look at the nations that have stockpiles, one 
nation in particular, Syria, that we are talking about, has 
used those. North Korea has them. What about Iran's threat to 
all of us? So this is in the interest of the United States, 
aside from the international norm.
    Mr. Bera. So, listening to those concerns, listening to 
what the strategic goals are here and why it is in the national 
security interest, again, listening to my constituents, you 
know, they understand the importance of maintaining our 
credibility and our standing as a Nation. But, again, Syria 
seems so far away for them. These issues seem very far away 
from them.
    And, you know, as we discuss it here, we are sending a 
message to Assad, but we are not securing these chemical 
stockpiles. We are not--and I think, General Dempsey, you in 
your testimony and in the past have indicated how difficult it 
would be to secure chemical stockpiles, to make sure that they 
don't fall in the hands of terrorists, of individuals who would 
want to use them against us here on our own homeland as well as 
with our allies.
    But that is not our stated goal. Our stated goal is not to 
make sure that we are securing our homeland, that we are making 
sure our neighborhoods are safe. It is a very difficult goal to 
articulate to my constituents.
    Secretary Hagel. Let me just remind us of something which 
has been noted earlier here in this hearing. Next week we are 
going to celebrate--not celebrate--we are going to remember 
what happened in this country on that September day in 2001. 
And we all recall where we were.
    How many of my constituents, during those days, in Nebraska 
or your constituents in California ever thought about or even 
knew where Afghanistan was or had ever even heard of this 
organization called al-Qaeda?
    There is a clear, living example of how we are not 
insulated from the rest of the world, how things can happen to 
the United States, in this country, if we are not vigilant and 
think through these things and stay ahead of these things and 
take action to prevent these things from occurring.
    Maybe something would not happen in this country for a 
couple of years. I don't know. But it has been noted up here 
that the next President, the next chairman and ranking, the 
next group of Members who will occupy your seats may have to 
deal with this in a bigger way if we are not paying attention 
to it now.
    But the 9/11 anniversary I think is a very clear example 
you can use with your constituents.
    Chairman Royce. Scott Perry, Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, gentlemen, each of you, for your military 
service.
    I would just like to start out with some corrections for 
the record since it has been a topic of discussion. I have got 
the quote here from the President: ``A red line for us is we 
start seeing a whole bunch of chemical weapons moving around or 
being utilized. That would change my calculus. That would 
change my equation.'' That is the President, August 20th of 
2012, just because some folks like to revise history.
    Secretary Kerry, if you could, just one question to start 
out and then a couple more quotes. Would you consider sarin gas 
a weapon of mass destruction?
    Secretary Kerry. Yes.
    Mr. Perry. VX gas, a weapon of mass destruction?
    Secretary Kerry. Yes.
    Mr. Perry. Okay. So those two were used in Iraq, found in 
Iraq before I got there and found in Iraq when I got there, for 
those who say that the past administration lied about weapons 
of mass destruction.
    Now, some quotes here for you. This is from the President:

        ``The President does not have the power under the 
        Constitution to unilaterally authorize a military 
        attack in a situation that does not involve stopping an 
        actual or imminent threat to the Nation.''

That was in 2007.

        ``If the U.S. goes in and attacks another country 
        without a U.N. mandate and without clear evidence that 
        can be presented, then there are questions in terms of 
        whether international law supports it.''

And that was August 23, 2013.
    August 31, 2013:

        ``While I believe I have the authority to carry out 
        this military action without specific congressional 
        authorization, I know that the country will be stronger 
        and our actions will be even more effective if the 
        strike is authorized by Congress.''

    Now, Secretary Kerry, you, President Obama, and Vice 
President Biden have all previously expressed your support for 
the War Powers Resolution. Section 2(c) of the statute asserts 
that the President may constitutionally use U.S. Armed Forces 
abroad only pursuant to a declaration of war, specific 
statutory authorization, a national emergency created by an 
attack on the United States.
    We have a credibility and trust issue here. I questioned 
Ambassador Ford right here in this room in March about our 
strategy, and I could get no clear answer regarding the 
crossing of a red line, which I think was a capricious 
statement based on the lack of a strategy. However, we are here 
right now with this situation in front of us.
    My direct question to you, Secretary, is, will the 
President abide by the wishes of the representatives of the 
American people if there is a ``no'' vote on a resolution in 
this Congress?
    Secretary Kerry. Well, I can't--look, I can't answer for 
the President. He answers for himself, obviously, and I answer 
to him.
    But I can guarantee that the President has made it clear 
that he believes he has the authority within the Constitution 
in the executive branch to be able to take an action without 
congressional approval. And that has happened again and again 
under Presidencies of both parties.
    So, you know, I don't think we are going to advantage 
ourselves with that constitutional debate here right now----
    Mr. Perry. But I think that is pivotal and critical. While 
we talk about how we are going to do what we are going to do, 
we haven't talked enough about if we have the authority----
    Secretary Kerry. Rather than talk about----
    Mr. Perry [continuing]. If the President has the authority 
to do it.
    And with all due respect, Mr. Secretary, with all the--you 
know, I am glad that the President came to Congress to get this 
question answered and have us involved. He made the statement 
that he was going before he came to Congress. And it is my 
opinion that when the American people said we don't want you to 
do this and when the international community said we are not 
with you on this and the British Parliament said no, then he 
came to the Congress----
    Secretary Kerry. Well, Congressman----
    Mr. Perry [continuing]. Not because he had this shining 
vision at the beginning of a grand strategy which would involve 
the Congress once the red line was crossed.
    Secretary Kerry. Congressman, look, we can have a 
discussion here. Needless to say, you don't agree with the 
President's approach to some of these issues over a period of 
time, maybe many of them, maybe all of them. And you are a 
Member of the other party, and the President isn't your 
President of choice; he is the President we have.
    It doesn't do us any good here to debate those differences 
with the President. What is important is to discuss here 
whether or not the fact that he has come to you and he is 
requesting this authority and he has made his decision as 
President of the United States.
    Mr. Perry. Okay. And I would say that that is fair. Thank 
you----
    Secretary Kerry. So now let's decide whether or not 
together we can find the common ground in the interests of our 
country to do what is necessary to hold a man accountable for 
his use of chemical weapons of mass destruction. That is the 
question.
    Chairman Royce. We have with us Tulsi Gabbard, who flew a 
long way from Hawaii to be with us today.
    Tulsi?
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for being here. I have a tremendous 
amount of respect for the three of you and your service and 
commitment to our country on so many levels.
    I also have the privilege and honor of serving our country 
in uniform and deployed with the Hawaii Army National Guard to 
Iraq back in 2005. And one of my daily responsibilities there 
serving in a medical unit was going through a list every single 
day of every injury and casualty throughout the entire region, 
looking for and taking care of our Hawaii soldiers.
    And it is those experiences and those memories, as well as 
the knowledge of the many innocents who have been killed in 
Syria, that I carry with me every day but through this 
discussion that we have and take our responsibility very 
seriously, as do you.
    I think there is no question, we have seen it clear today, 
that the use of these chemical weapons is horrifying. My 
concerns that I would like to address with you lie in the fact 
that the path that you are advocating for us forward still 
remains unclear to me on many levels: The right course of 
action, the most effective course of action, and whether or not 
the stated objectives that you have spoken about today and 
previously, as well as making sure that we have a very 
realistic and honest understanding of what the next steps are 
and what the unintended consequences of this action could be. 
And that is really where my concern is, is the answer to the 
question of what happens next.
    I think that we can place many limitations on what role the 
United States will play, both through resolutions and in other 
means. But whether we like it or not, the consequences of our 
actions will impact the civil war, a very complicated region. 
And once we are involved with our military, it is likely that 
we will have to consider the extended role that we will play in 
any escalation or retaliations that occur.
    So I have three major questions that I would like you to 
address. One is the very realistic possibility that a limited 
strike will not achieve your objective, the targeted strike to 
debilitate Assad, resulting in a deterrence of his further use 
of the weapons of mass destruction, both for him and around the 
world.
    And I ask just to look back in Iraq, where there were 
thoughts that Saddam Hussein had weapons of mass destruction, 
he was deposed, captured, and hanged. And what you are 
advocating for falls very short of that action. Why would 
taking this lesser action deter him or other dictators around 
the world, when, clearly, that example of Saddam Hussein has 
not deterred Assad?
    Secondly, each of you has made a distinction between this 
limited strike and providing aid to opposition forces. By 
weakening Assad with this blow, are we not indirectly assisting 
the opposition forces in gaining strength?
    And, lastly, with the control and use of chemical weapons, 
General Dempsey, you stated that the targets you are talking 
about will be directly linked to means of control of these 
chemical weapons without actually releasing the weapons 
themselves. And I am wondering what your strategy and 
objectives are regarding securing these weapons across Syria, 
especially if Assad loses control or if the regime falls, how 
we secure them, given the nonsupport from Russia and China, in 
particular from al-Qaeda and terrorists, people who have stated 
very explicitly their desire to harm our people and American 
interests.
    Secretary Kerry. Very good questions, Congresswoman. And, 
first of all, thank you for your service very, very much.
    General, do you want to just take the last one, and then we 
can take the other two?
    General Dempsey. Yeah, I can do that.
    I guess this is what we get for training you how to ask 
questions about military operations. And thanks for your 
service.
    I will take on the question of security of the weapons in 
the event of the fall of the regime. We do have, at the 
classified level, contingency plans with regional partners to 
secure a finite, a limited number of sites.
    The challenge we have with that is the number of potential 
sites. And the regime has a tendency to move their chemical 
weapons around, we think to secure them but at some point it 
may not be to secure them.
    And so I would just tell you that we do have contingency 
plans with regional partners for the security of the weapons, 
but it is a very heavy lift.
    Secretary Kerry. With respect to the limited strike, not 
achieving the objective, I think the General has spoken to that 
earlier, that he has confidence that we have the ability to be 
able to achieve our objective. If not in the first, you know, 
volley, certainly we have the ability to achieve that 
objective.
    And, secondly, you said would it inadvertently or would it 
not, in fact, help the opposition? And I have said many times, 
as a collateral component of this, any degradation of Assad's 
military will, of course, be a benefit to the opposition. But 
that is not the fundamental purpose of the initiative the 
President is asking you to engage in.
    Chairman Royce. Ron DeSantis from Florida.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thanks to all the witnesses, and thank you all for your 
service, particularly military service.
    Secretary Kerry, you spoke about how the use of this gas 
breached the norms of civilized behavior, international norms, 
and that we need to enforce this norm kind of like you would 
enforce lessons learned by children and bullies I think that 
you had said.
    And I know you got a little irritated about the Benghazi 
issue, and it was not on your watch, and you are not 
responsible. But as I look at this, that same line of reasoning 
should have applied to Benghazi. The assassination of a 
diplomat breaches norms that were recognized probably far 
longer than norms against use of sarin gas, and yet the U.S. 
has not acted to avenge the deaths of the four Americans, 
including our Ambassador, who were massacred in Benghazi. And 
that lack of response, I think, using the same line of 
reasoning, certainly could embolden terror groups and Islamic 
malcontents that they can do this and that we may not respond 
forcefully.
    Now, you are not responsible for that, but there is a 
frustration among some of my constituents about how we have 
handled that, not on your watch, but I just wanted to clear up 
how some of us view that.
    Secretary Kerry. Congressman, let me speak to that, because 
I appreciate completely--I think that is a little different 
from the earlier question, so to speak--I appreciate and 
respect completely the need for justice to be done.
    And believe me, we have this discussion in the State 
Department and in the White House about the steps that are 
being taken. And there are steps being taken. That is not a 
back-burner issue. And in an appropriate setting, I would be 
delighted to share with you exactly what is going on. But that 
accountability is a priority for the President, it is a 
priority for us----
    Mr. DeSantis. Well, we appreciate that, and we are waiting 
for that.
    Secretary Kerry, do you think that striking Syria for Assad 
using poison gas will have an effect on whether Iran decides to 
continue with its nuclear program or abandon it?
    Secretary Kerry. I think whether or not the United States 
stands up at this moment, as I have described earlier, to 
enforce this almost-century-old prohibition on the use of 
weapons will, in fact, affect not only Iran but loads of 
people's thinking about whether the United States is good for 
its word.
    Mr. DeSantis. So you think that it is possible that Iran, 
seeing a limited strike against Assad, that they will actually 
decide to abandon their weapons----
    Secretary Kerry. No, I didn't say that. I said it will 
affect their thinking about how serious the United States is. I 
can't predict what they are going to decide to do or whether 
they will abandon it or not. But I will tell you this: It will 
enter into their calculation about what we might or not be 
prepared to do.
    And if we don't do anything, I absolutely guarantee you 
that, too, will enter into their calculation.
    Mr. DeSantis. I guess my fear is that they have already 
made their determination and they are going to continue with 
it, but I guess we will find out.
    In terms of these opposition groups--and I think it is true 
that when you degrade Assad, you are benefitting the opposition 
groups. And I think that the bulk of that energy right now is 
with Sunni supremacists and al-Qaeda-affiliated terrorists. But 
it is difficult to kind of figure out where everybody is on all 
this.
    And there was a quote that you had given about when we were 
evaluating the Libyan opposition. You said,

        ``We didn't know who all the people were in Eastern 
        Europe either. We don't always know who they all are. 
        If you asked Lafayette the question if he knew everyone 
        here when he helped us during the American Revolution, 
        what he would say. I think that you have to kind of 
        have a sense of the course of history and what they are 
        fighting for.''

    Is that pretty much--do you stand by that quote and, kind 
of, the difficulty in evaluating?
    Secretary Kerry. Well, let me----
    Mr. DeSantis. And I ask that because, you know, we have 
seen, with the Arab Spring, we have seen the reaction to us 
going into Afghanistan and Iraq. And, kind of, what is the 
animating impulse in these Muslim countries? And there was a 
comment about we would like to see a pro-Western government 
take the place of Assad, and I have not seen any evidence to 
suggest that that is what would be the primary impulse 
motivating the people in a post-Assad Syria. Indeed, I fear 
that what would motivate them would be the Muslim Brotherhood, 
Sunni Islamism, of course al-Qaeda-type terror groups.
    And so that is the sense of history that a lot of us see. 
And that is why, when we are looking at a potential strike, how 
that could affect the civil war, we don't want to be doing 
something that is going to lead to an outcome that is as bad as 
having Assad or potentially even worse.
    Secretary Kerry. Congressman, a very good question. And the 
answer is there are some really bad actors in some of these 
groups in Syria. Al-Nusra is not the worst, but they are really 
bad. And there are a couple of other groups that, you know, 
some people characterize as worse.
    But one of the things that is concentrating the President's 
thinking about Syria and the reason for supporting the moderate 
opposition is to have a buttress against those folks who, if 
Syria continues to move in the direction it has been going, if 
there is an implosion, they will be strengthened, there will be 
more of them.
    This is, in fact, something that does bring Russia and the 
United States together. When I was in Russia and met with 
Putin, he discussed specifically their concerns about the 
extremists.
    But Syria, traditionally, historically, in the recent 
years, has been a secular country. And the vast majority of the 
opposition, 75 percent, 70 percent of it, is hopeful to have a 
very different Syria--a free Syria, a Syria that has minority 
rights protected, that is inclusive. And that is what the 
opposition has in written form committed themselves to and is 
talking about wherever they go in the world.
    So I hope you will recognize that the best way to isolate 
the extremist components of the Syrian fabric is to more 
rapidly build up the opposition and diminish Assad's capacity 
to prolong this.
    Chairman Royce. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service, first of all, 
and for your testimony today.
    You know, there have been a lot of strong arguments made on 
both sides, both in favor of taking action and, quite frankly, 
against taking action. I have had a chance to hear about 1,500 
comments, from social media posts to emails, calls, faxes, et 
cetera.
    And just to recap, I think I have boiled it down to the big 
arguments for, for example: First, that there is a moral 
imperative to act because of the use of chemical weapons; 
second, that we need to strike to prevent repeat behavior; 
third, that inaction will embolden others, specifically Iran 
and North Korea; fourth, that the U.S. reputation is on the 
line, that we need to show that we are not bluffing and that 
the world can count on our word; and, five, the effect on our 
allies.
    The arguments against include that this war is not 
worthwhile, that there are extremists on both sides, that 
America should focus on its own problems; that military action 
will have no real effect, that the scope is not enough, that 
these actions are not enough to change things; third, that 
military action will make things worse, that there will be 
collateral damage, increase in refugees, war will lead to more 
war; fourth, that we should take alternative action. You have 
heard folks say that we should try diplomacy or try to do this 
with a coalition if that is possible. And then, fifth, that the 
war is too expensive and, again, that America should focus on 
its own issues at home.
    And in making this decision, you know, I publically stated 
in San Antonio, the town that I represent, which is Military 
City, USA, that I am open to the idea of military strikes but 
that I want to review the evidence. And that is where I still 
stand today.
    And so, with that in mind, I have a few quick questions for 
you. The first is, if we do act militarily or if we decide not 
to, if this Congress votes yes or no, what is the policy that 
we are establishing or the precedent that we are establishing?
    And, important for me, what will this mean for future 
generations of Americans, post-baby-boomer generations of 
Americans, Generation X and millennials, and Americans that 
have not been born yet? Where will that leave America for them.
    Secretary Kerry. Well, Congressman, those are all very 
appropriate considerations, each of the ones that you have 
listed.
    Where will we be? I believe that we would be not 
establishing a precedent; we would be upholding a precedent. We 
would be upholding the unbelievably committed global reaction 
to the horror of World War I, to the use of gas rampantly, and 
to the world's condemnation of that and the fact that over 180 
countries have signed on to this convention. We would be 
upholding it.
    And from the perspective of, as you say, Generation X or 
baby boomers or whatever you want to assign as a concept, I 
think it is a vital statement about multilateral, international 
commitment to norms by which you and your generation and the 
future generations would want to live. And I would hope it 
would be something you would overwhelmingly support, because it 
is a matter of values and interests coming together in an 
appropriate manner. And I think the absence of our willingness 
to enforce that would be very dangerous for our country for the 
long term.
    Mr. Castro. And, Mr. Secretary, let me ask you, what 
precedent do we set if we don't act?
    Secretary Kerry. Well, for the United States of America, it 
would be a very unusual statement of our unwillingness to 
uphold something that we have fought for and been part of for a 
long, long period of time. I think we would be walking away 
from a responsibility and perhaps signaling a new moment of 
confrontation and difficulty for our country in many other 
respects, on many other issues.
    Mr. Castro. Do you feel that it would fundamentally start 
to change America's role in the world?
    Secretary Kerry. Well, it would change the world's 
perception of America's willingness to live up to its 
traditional role in the world, and it would certainly have a 
profound impact on people's judgments about what we are willing 
to stand up for and not stand up for.
    And I caution you politely and humbly, I believe very, very 
deeply it will invite other contests of conflict that will put 
us to the test and potentially with much graver consequences.
    Mr. Castro. Thank you.
    Chairman Royce. We go to Mr. Doug Collins of Georgia.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate it.
    And I thank you for being here. I thank you for your 
service.
    And I associate myself with the Representative from Hawaii, 
in serving in Iraq and knowing the issues going on. One of the 
benefits of sitting down here on the bottom row is you get to 
listen. You hear a lot of things, and you can get a lot of 
questions asked.
    Secretary Kerry. The only benefit.
    Mr. Collins. And I am not going to steal the thunder of 
some others that may come, but there is some--what I have heard 
today, though, still concerns me greatly. And I walked into 
this hearing concerned and very deeply concerned about the 
actions we are taking; I am still there.
    Many of those have to do with military questions and the 
questions that come from the, you know, statements such as, 
Secretary Hagel, you made, that there is no clarity on the 
ground, that there are no good options in Syria, these kind of 
things that lead me to an understanding of what happens is, you 
know, the limited-involvement nature, which has been talked 
about over and over here, and the high confidence that that 
limited nature would be effective. But if it would not, your 
statement just a moment ago, ``well, after the first volley'' 
leaves an open ending, well, there is another volley and 
another volley that would come if it did not achieve the end.
    I want to address, though, for a few questions on this 
issue. According to the unclassified assessment that was given, 
there was information that suggested that a possible chemical 
attack was imminent on August 21st. In fact, what was said was 
from August 18th, Sunday, through Wednesday the 21st there were 
Syrian chemical weapons personnel operating in the area.
    The report goes on to say that 3 days prior to the attack 
there were strings of human signals and geospatial intelligence 
gathered showing the Assad regime preparing for a chemical 
attack.
    With over 48 hours' notice and the recent history of 
chemical weapons being used in Syria, did the U.S. military not 
take action or quickly enough to convene the U.N. Security 
Council? Why did we not act, knowing the history--and I am 
going to come back to this part later--as quickly as possible? 
Why was there nothing done at that point?
    Secretary Kerry. Because that information isn't real time 
in terms of the way it comes in. It goes through a process. So 
it wasn't--there wasn't time.
    Mr. Collins. Then you really--and I appreciate that answer, 
but you really now concern me even more that our intelligence 
operation, without getting into a, in this setting, discussion 
of this, that if it was not real time, we were finding out 
after the fact, then some of my concern, General Dempsey, would 
be that the limited engagement to, as you said, take out the 
operation or the engagement of the chemical weapons and not 
destroy all the chemical weapons, what is the confidence level? 
Although you have stated high, why should I or anybody else in 
this committee say that there is a concern that our 
intelligence is not real time enough to answer your question?
    General Dempsey. Different kinds of intelligence, sir. As 
you probably know--and thanks for your service, too, by the 
way--so there is signals intelligence, which is what you are 
referring to. There is full motion video. There is national 
technical means that allow us to establish pattern of life. It 
is different kinds of intelligence.
    Mr. Collins. But with the movement, there is a concern that 
the initial assessment could be wrong and there would be--I 
guess what I am getting at here is there seems to be a lot of 
thought out there that this is a one-strike operation. Although 
I am getting, you know, rumor now--and they are not rumor, but 
there are discussions of a 30-day or 40-day or 60-day, 90-day 
window. I guess that is the concern I am having. Many in 
America are simply saying, are we going to throw a few cruise 
missiles or a shot across the bow, is the term that was used? 
That is not what we are looking at here. This could be a--are 
we saying this could be a sustained attack? And or is this a 
one--and, you know, without getting in or telegraphing, that is 
the concern.
    I will stop it there. I won't ask you to answer that. But 
that is a concern that I think many should have.
    In this atmosphere, also, very quickly, Secretary Kerry and 
Secretary Hagel, how we, after the initial gas attacks earlier 
in the year, we upped our ante to those that were fighting 
against Assad. Do we have--and, again, how much of that has 
actually got there? In a real short answer. How much of that 
equipment or assistance is actually making a difference? 
Because I think one of the Senators and others have said we 
have not actually been able to get that equipment to them.
    Secretary Kerry. I think we have made a difference but not 
as much yet as we would like.
    Mr. Collins. Okay.
    Secretary Kerry. But I don't want to go into any other 
details here.
    Mr. Collins. I understand that, and I appreciate that.
    But in light of what we are doing here, I think it is very 
pertinent information. Because like I said, if we do this----
    Secretary Kerry. Well, one of the reasons, if I can just 
tell you very quickly, it is because it wasn't authorized----
    Mr. Collins. I understand.
    Secretary Kerry. [continuing]. Until a couple months ago.
    Mr. Collins. I get that.
    Secretary Kerry. So we are just getting up on it.
    Mr. Collins. But if we were to do this, it goes back to the 
saying of a former Secretary, that if we break it, we own it. 
And this is a concern here.
    Also, I want to go back to something here that you said 
earlier----
    Secretary Kerry. We didn't break it.
    Mr. Collins. I understand.
    Secretary Kerry. It is broken.
    Mr. Collins. But if we shoot missiles in there, we are 
involving ourselves in degrading stock.
    One quick question. And I want to give you a chance to walk 
back something. And it disturbed me when you said it, and I 
think it was a misspeak, so I am going to give you a chance. 
Basically, you said, at this point in time, the reason we are 
acting now is the level of death or the level of carnage had 
risen to a level in which you felt like you needed to act.
    In my mind, what you just said a little while ago was that 
we had to have a lot of bodies to make a compelling case and 
that one didn't matter. And I don't believe that is what you 
meant.
    Secretary Kerry. No----
    Mr. Collins. So I am going to give you a chance to walk 
that statement back. Because if we are truly doing this because 
of death, then one would matter, when he has been doing this 
for several months.
    Secretary Kerry. I appreciate it, Congressman. I don't want 
to leave any misinterpretation with respect to that.
    In the first instances, we had a lot of difficulty getting 
a lock down on the level of intelligence that made everybody 
comfortable. And partly because it was a smaller event, you 
didn't have the kind of evidence, there wasn't the kind of 
immediacy, social media, other things that we have here, 
signatures, SIGINT, and so forth. We just didn't have it. In 
this instance, we do, and it happens also to be an even more 
egregious event.
    But that is not--the body numbers aren't the distinction. 
It is the level of the evidence, the quality, and the comfort 
level. And, at that point in time, the President, you know----
    Mr. Collins. Right.
    Secretary Kerry [continuing]. Didn't want to rush into 
something.
    Mr. Collins. Well, I think these are the very things that 
caused my concern----
    Chairman Royce. We go now to Mark Meadows of North 
Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for your patience and your tenure 
here at this hearing.
    I want to ask you specifically and go into some of the 
questions with Hezbollah and let's look at their involvement.
    If there was an attempt on their part to gain access or the 
intelligence to chemical weapons, under the authorization that 
the President seeks, would you see them as an acceptable target 
for having the ability to acquire that or the attempt to 
acquire that?
    Secretary Kerry. Well, again, I don't want to get into 
targeting here. It is inappropriate, except to say to you the 
President's----
    Mr. Meadows. Would that be covered under his authorization?
    Secretary Kerry. No. The President's authorization does not 
apply to Iran or Hezbollah or other entities. It is not entity-
specific. It is with respect to the Assad regime's capacity 
with respect to chemical weapons. And it is solely focused on 
the degrading and the preventing of the use by the Assad 
regime.
    Mr. Meadows. So are we actively engaged to make sure that 
Hezbollah is not gaining access to these chemical weapons to be 
used in another theater?
    Secretary Kerry. Well, General, do you want to----
    General Dempsey. Yeah. We do know a little about that, 
whether they even want any part of chemical weapons and, if so, 
what might be the instrument. I can tell you our regional 
partners are very interested in that question. But it really 
would be classified.
    Mr. Meadows. Okay. So you are saying, then, if Syria 
transferred their chemical weapons to Iran, to a state-
controlled entity, the receiving of those chemical weapons 
would not be one that would dictate action from us?
    Secretary Kerry. No, it is not. These are not externally 
focused at all, and I want to emphasize that. I will add that 
there is evidence that both Iran and Hezbollah have opposed the 
use of chemical weapons.
    Mr. Meadows. Okay.
    So let me go on further, because I think, Secretary Kerry, 
your quote was, ``Do we mean what we say?'' And so I think that 
is a critical question today, because is this a new departure? 
Are we going to start a new foreign policy where we truly mean 
what we say?
    Because about 6 minutes into your testimony, you mentioned 
that there were 11 other events where gas or chemical weapons 
was used there in Syria, and yet we have done nothing. And so, 
when we start to look at that, is this a new day for foreign 
policy where we are going to start to say something and mean it 
and draw a red line that truly is a red line?
    Secretary Kerry. Well, let me say with respect to those 
other incidents, this is an intelligence community assessment--
--
    Mr. Meadows. But this is not new intelligence.
    Secretary Kerry. No, no, no----
    Mr. Meadows. I mean, we have known this----
    Secretary Kerry. No, I know this.
    Mr. Meadows [continuing]. For many months.
    Secretary Kerry. Congressman, I know this, because I have 
been at the forefront. I was here----
    Mr. Meadows. I have read your reports, yeah.
    Secretary Kerry [continuing]. Arguing this and talking 
about it last year, too.
    The problem was, again, with many of those, the quality of 
the evidence, the level of the event, and people were 
uncomfortable with the notion that that, in fact--it called for 
action, but it didn't necessarily rise to the level of what the 
President has decided----
    Mr. Meadows. So what is that level? Is it 1,000 deaths? Is 
it----
    Secretary Kerry. No, it is not based on deaths. It is based 
on, I think, an exhaustive----
    Mr. Meadows. Because either a use requires action or it 
doesn't.
    Secretary Kerry. I beg your pardon?
    Mr. Meadows. Either when they use----
    Secretary Kerry. Well, I don't know, what was the date when 
the President drew the red line publicly? I don't recall that.
    Mr. Meadows. Well, but it had been, you know----
    Secretary Kerry. I think some of those events were prior to 
that.
    Mr. Meadows. Sure.
    Secretary Kerry. And so I think there has been a steady 
effort----
    Mr. Meadows. Because we go back all the way to August of 
last year.
    Secretary Kerry. And I think there was a steady effort by 
the administration and others to try to send messages, and they 
were sent very powerfully, I might add. Messages were sent to 
the Russians. They were sent directly through to Iranians. The 
messages were sent----
    Mr. Meadows. But today we are talking about military 
action.
    Secretary Kerry [continuing]. In an effort to try to 
ratchet it down.
    Now I think there is a sense of those efforts all having 
been exhausted and this, therefore, being a remedy of last 
resort.
    Mr. Meadows. Okay. So when do we ultimately get--when can 
our enemies and our allies depend on us to take action when we 
have these kinds of things that happen? Because CIA reports----
    Secretary Kerry. When the House of Representatives passes 
the President's request for this resolution.
    Mr. Meadows. As it relates to Syria and everybody else? 
Because this is just Syria, but I am talking about 
internationally.
    Secretary Kerry. Well, internationally, Congressman, I 
think we have been proving our word good on everything the 
President has said he is going to do. He has drawn down in 
Iraq. He is drawing down in Afghanistan. We are working on a 
Middle East peace process. We have been involved with Egypt and 
many other countries. We are continuing to prosecute al-Qaeda 
in Yemen and elsewhere. We have decimated al-Qaeda in Pakistan. 
We are working on a bilateral security arrangement with 
Afghanistan.
    I mean, these are things that are all going on. And I 
think, you know, these broad, sweeping assessments don't 
actually do justice to what is happening.
    Chairman Royce. We are going to Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Thank you, gentlemen, for enduring the length of time here. 
And I hope you men are men of prayer and that we seek guidance 
and wisdom as we work through this.
    And I agree with many of my colleagues that our foreign 
policy is confusing to the world, our allies, and to the 
American people. And that is why I think we are sitting here 
today. The primary role of the U.S. Government, according to 
our Constitution, is national security. I do not see a direct 
threat to the U.S. from the internal civil war in Syria, as 
deplorable as it is.
    You know, we have got 1,400 to 2,000 people killed by 
chemical weapons. I think that is despicable. But what about 
the 108,000 that have been killed by conventional warfare? Is 
that not just as despicable?
    I cannot, I will not, nor shall not support intervention in 
this conflict. Our action would be one of attacking a sovereign 
nation, a nation that did not attack us, an act of war. And if 
we start war, we invite war, do we not? And I view this as 
unconstitutional, to attack a country that did not attack us. I 
and the people I represent said not just ``no'' but something 
like ``heck, no,'' don't get involved in this.
    And the same thing I hear over and over here. The CWC 
agreement signed by 189 countries states that any country that 
produces, transports, stores, sells, or uses chemical weapons 
are in violation of that agreement. Who are those countries? 
You have North Korea, possibly Russia, as Secretary Hagel said, 
was supplying Syria with possible chemical weapons. Maybe Iran 
or China, the U.S. There are probably other countries.
    So if we act now against Syria, does that mean we act 
against other nations? And do we act in totality? And do we act 
now? You know, where does this stop? I mean, once you cross a 
red line--and this goes back to our confusing foreign policy. 
It was a red line; it wasn't a red line. I just think we need 
clarity in this.
    And I want to know where the 188 countries are that signed 
the agreement, the U.N., the Arab League, and NATO demanding 
that we come to the table on one side and Mr. Assad on the 
other side.
    I implore you guys and the administration to find a 
diplomatic solution. Because all I have heard is military 
intervention. And I know you guys have talked about diplomatic 
solutions, but the clout of the United States and that we 
supply the majority of the foreign aid around the world, that 
we need to bring people and demand people come to the table. 
And this is a moment in time, in history, where we, America, 
can lead in a new direction, a direction where we can bring 
together a coalition of countries that the other 188 that 
signed the CWC agreement and negotiate a political and 
diplomatic solution. It is a time for a new direction in our 
foreign policy, especially in the Middle East. And we can win 
this, and it can be done and won with diplomacy and not with 
guns and bombs.
    Senator Kerry, you said yesterday that you could not 
guarantee that U.S. troops would not be on the ground.
    Secretary Kerry. No, I did guarantee that they wouldn't be, 
and I guaranteed it again today.
    Mr. Yoho. I have the transcripts right here, and----
    Secretary Kerry. I think if you read the whole transcript, 
I said clearly there will be no troops on the ground.
    Mr. Yoho. All right, even if the weapons fell into the 
hands of the bad people?
    Secretary Kerry. There is nothing in this resolution----
    Mr. Yoho. Okay.
    Secretary Kerry [continuing]. Whatsoever----
    Mr. Yoho. All right.
    Secretary Kerry [continuing]. That would put troops on the 
ground. Nothing.
    Mr. Yoho. I just wanted clarity on that. Thank you.
    General Dempsey, you stated that we would need thousands of 
support troops on the ground, you didn't say in Syria but close 
by. Where would they be?
    General Dempsey. Not related to this resolution. That is 
related to whether we took a decision to support the 
opposition.
    Mr. Yoho. Okay. Well, the way I read this briefing out of 
the CRS as of 2 days ago, it said in Syria, if we attack Syria.
    General Dempsey. No. No, sir.
    Mr. Yoho. Okay.
    Do we have support and authorization from Turkey to use 
their air bases, or can that not be divulged?
    General Dempsey. That is something we should talk about in 
a classified setting.
    Mr. Yoho. Okay.
    General Dempsey. Same with Jordan and other places.
    Mr. Yoho. Does the CWC or, according to you, Secretary 
Kerry, the world's resolve or the international community, is 
there a doctrine that the U.S. should lead in moral conflicts 
like this? Why is it always America out front? I know we have 
the best military, and I am very proud of that. But why are we 
out leading this again?
    Secretary Kerry. Well, let me answer that.
    And, Mr. Chairman, I have to take more than 40 seconds to 
do it, but it is a vital, vital question for Americans and for 
this issue.
    Congressman, I wish the world were a little more simple. I 
grew up in the cold war; I think all of us did. And it was 
pretty East-West, communism, you know, the West. That is not 
the world we live in today. When the Berlin Wall fell, so did 
all of the things that tamped down a lot of sectarian, 
religious, and other kinds of conflict in the world.
    And the truth is, you know, we are 1 week away from 9/11 
commemoration. Nine-eleven happened because there were 
ungoverned spaces in which people who wanted to fight the West, 
who are culturally and historically opposed to modernity wanted 
to attack us. And they did.
    And I think most people, in making judgments about how to 
keep our country safe, make the judgment that there are a lot 
of folks out there who are committed to violent acts against 
lots of different people because that is what they want to do. 
And we have to defend ourselves differently today and work to 
deal with these issues in a different way than we ever have 
before.
    Now, I would just say to you, you know, we do have direct 
interests in what is happening in Syria. There is a direct 
interest in our credibility with respect to this issue. And you 
asked the question, you know, why does the United States have 
to be out there? Well, because what our forebears and, you 
know, what those--have you ever been to the cemetery in France, 
you know, above those beaches? Why did those guys have to go do 
that? Because we were standing up with people for a set of 
values and fighting for freedom.
    And no country has liberated as much land or fought as many 
battles as the United States of America and turned around and 
given it back to the people who live there and who can own it 
and run it. We are the indispensable nation. This is because of 
who we are and what we have achieved, and we should be proud of 
it. And we have a great tradition to try to live up to, in 
terms of trying to help people to see a peaceful road, not a 
road of jihadism.
    A lot of people out in the Middle East count on us. 
Moderate Arab world, not religious extremists, they count on us 
to help them be able to be able to transition. That is part of 
what the Arab Spring is about. And it is not going to end 
quickly. It is not going to be over just like that. Our own 
struggle for freedom took a long time.
    So I think we have to have a longer view here. And I think 
we have to think about the ways in which we can protect 
ourselves. And I guarantee you, if we don't stand up against 
chemical weapons in this instance, we are not serving our 
national security interests.
    Chairman Royce. We go now to Mr. Luke Messer of Indiana.
    Mr. Messer. Thank you, Mr. Chairman. I think someone has to 
go last today. That is me. I certainly thank my colleagues for 
sitting here on the front row with me. Thank the chairman for 
calling us all back to what I think is very important work. 
Thank you for your service and your stamina today as well. We 
are entering almost the fourth hour of this hearing.
    I appreciate and respect the President's decision to bring 
this matter of authorization before Congress. I was one of a 
broad group of 150 folks that signed on to a letter that 
requested that. I appreciate the President heeding that 
request. I understand the legal arguments about whether or not 
it was necessary for him to do that. I would associate myself 
with Congressman Perry's comments that that decision has now 
been made, and the President has brought this before Congress, 
and I believe it is very important that the President abide by 
that vote.
    I won't revisit all the other questions that others have 
asked today. I will tell you that I make that comment as 
someone who, if I had to vote today on whether or not to 
authorize force against Syria under the circumstances presented 
before me, I would vote yes. I certainly believe it is a vote 
of conscience. I recognize that people of good conscience can 
come to different conclusions based on the facts. And there is 
no more somber responsibility for a Member of Congress than the 
decision about whether or not to send men and women into 
combat, because we all know what the inevitable result of that 
can be.
    The facts, as I see them, are that chemical weapons were 
used, innocent children were gassed. Clearly, our allies, like 
Israel, in the region believe action is needed. Clearly, evil 
dictators in Iran, North Korea, and elsewhere are watching. And 
undoubtedly, inaction will embolden them.
    I am no fan of this President's foreign policy. Frankly, I 
believe that mismanagement in many instances over the course of 
the last several years have made the problems in Syria worse.
    But I want to make a point to all of you, and it may lead 
to a question, but it is just simply this: That that being my 
belief, the President, and the three of you as a team and 
others, have a lot of work to do to explain the necessity for 
this action with the American people. Much of what you say the 
American people understand. We are all aghast at the atrocities 
that occurred in Syria. America doesn't like to watch bullies 
stand by and do evil things to their people.
    But the American people inherently understand, intuitively 
understand that there are high risks to action here, too. And 
if I were to make a suggestion, I think we have got a lot of 
work to do to help the American people understand why the risks 
of action are less than the risks of inaction.
    And the question I would ask is this: What more can be done 
to further communicate with the American people? For example, 
will the President make a speech from the Oval Office to the 
American people in one of the coming evenings?
    Secretary Kerry. I have no doubt the President will.
    Mr. Messer. Thank you. I have no further questions.
    Chairman Royce. A minute remaining.
    Secretary Kerry. Well, Mr. Chairman, I think for all of us, 
we just want to thank you. We want to thank, again, the 
colleagues for taking the time to come back. It is serious. We 
are not going to disagree with you that we don't need to take 
advantage of these next days to communicate to our fellow 
Americans about why this is so critical.
    I would just leave you with this. You know, I think, look, 
General Dempsey and I could--you know, he is correct when he 
says something technically may be an act of war, and I 
understand what he is saying, but I don't believe we are going 
to war. I just don't believe that. Going to war is mobilizing a 
force, asking people to join up, fighting a long campaign, 
committing your troops on the ground, fighting to win, and so 
forth. That is not what we are doing here.
    We are asking for permission, the President is asking for 
permission to take a limited military action, yes, but one that 
does not put Americans in the middle of the battle, no boots 
will be on the ground, whereby we enforce a standard of 
behavior that is critical to our troops, critical to our 
country, critical to the world.
    And most importantly, I mean, if you look at what the 
option is, if you don't want more extremism, then you should 
vote for this, because to not vote for it is to guarantee a 
continuation of this kind of struggle that will encourage 
extremists, that will even encourage some friends of ours to 
support them in order to achieve their goal of removing Assad. 
And that will make that region far, far more dangerous, it will 
increase the humanitarian crisis, you will see more refugees, 
more pressure on our friends, Jordanians particularly, who are 
reeling under that pressure today, and more threat to Israel in 
the process, more threat to Lebanon in the process.
    So I would simply urge, you know, do not send a message to 
somebody like Bashar al-Assad that he will have impunity now 
because the one country that can lead this effort, that is the 
indispensable Nation, is going to walk away from its 
responsibility. And I think the American people know when you 
say, do you want to go to war in Syria, no, of course. It 
should be 100 percent. We don't want to go to war in Syria. We 
are not going to war in Syria. We are taking an action that is 
in our interest, in our national security interest in order to 
enforce a longtime standard. And if that is not enforced, the 
world will be less safe, and our citizens, no matter where you 
live in this country, will be less safe because the likelihood 
is greater that somebody, somewhere, will get their hands on 
those materials as a result of our inaction.
    Thank you, Mr. Chairman.
    Chairman Royce. Well, thank you, Mr. Secretary. And on 
behalf of the committee, I want to take the opportunity to 
thank all three of you for what has been a long, but 
productive, and I think certainly a necessary hearing here 
today before the House. And I would ask also that the State and 
Defense Departments be prepared to respond promptly to the 
requests from the committee, requests from our members as they 
continue to weigh this weighty decision whether to authorize 
the use of military force against Assad's ability to use 
chemical weapons.
    This hearing stands adjourned.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
